<html>
<title> - U.S. HISTORY: OUR WORST SUBJECT?</title>
<body><pre>[Senate Hearing 109-173]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-173
 
                    U.S. HISTORY: OUR WORST SUBJECT?

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON



 EXAMINING ISSUES RELATING TO AMERICAN HISTORY, FOCUSING ON S. 860, TO 
AMEND THE NATIONAL ASSESSMENT OF EDUCATIONAL PROGRESS AUTHORIZATION ACT 
TO REQUIRE STATE ACADEMIC ASSESSMENTS OF STUDENT ACHIEVEMENT IN UNITED 
                       STATES HISTORY AND CIVICS

                               __________

                             JUNE 30, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                    U.S. GOVERNMENT PRINTING OFFICE
22-340                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Christine C. Dodd, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JUNE 30, 2005

                                                                   Page
Alexander, Hon. Lamar, Chairman, Subcommittee on Education and 
  Early Childhood Development, opening statement.................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     3
    Prepared statement...........................................     4
McCullough, David, Historian and Author, West Tisbury, 
  Massachusetts, statement.......................................     6
Smith, Charles E., Executive Director, National Assessment 
  Governing Board; Stephanie L. Norby, Director, Smithsonian 
  Center for Education and Museum Studies; and James Parisi, 
  Field Representative, Rhode Island Federation of Teachers and 
  Health Professionals...........................................    15
    Prepared statements of:
        Mr. Smith................................................    17
        Ms. Norby................................................    24
        Mr. Parisi...............................................    28

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Theodore K. Rabb.............................................    40

                                 (iii)

  


                    U.S. HISTORY: OUR WORST SUBJECT?

                              ----------                              


                        THURSDAY, JUNE 30, 2005

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:07 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, chairman of the subcommittee, presiding.
    Present: Senators Alexander, Kennedy, and Reed.

                 Opening Statement of Senator Alexander

    Senator Alexander. Good afternoon. The Subcommittee on 
Education and Early Childhood Development will come to order. 
Excuse me for being a minute or two late; I was presiding over 
a little bit of American history. The Senate is debating the 
Central American Free Trade Act, and I am sure this will be a 
good deal more interesting than that, with Mr. McCullough here.
    I know Senator Ted Kennedy will be here. He is looking 
forward to coming. Other senators may come. We welcome all of 
you.
    Here is how we will proceed. We have two panels of 
witnesses. Mr. McCullough is one panel, and then we have three 
witnesses after that. So I will make a brief opening statement. 
Senator Kennedy will do the same. And then we will invite David 
McCullough to say whatever he would like to say about our 
subject. We will have some questions and then we will try to 
allow him to leave by about 3:45 or in that neighborhood, if 
that fits your schedule. Because I know you have other 
responsibilities tonight at the National Archives, which I am 
looking forward to attending as well.
    Monday is July 4th, Independence Day for the United States 
of America, and the sad fact is that for millions of young 
Americans, they don't know much about why we celebrate the 4th 
of July.
    According to the National Assessment of Education Progress, 
which we call NAEP, and which I prefer to call the ``Nation's 
Report Card'' because it is the closest thing we have to that, 
fewer students have a basic understanding of American history 
than have a basic understanding of any other subject which we 
test, including math, science, and reading. So when you look at 
our national report card, American history is our worst 
subject.
    That is why, on April 20th, Senator Kennedy and I 
introduced S. 860, the American History Achievement Act. This 
is part of our effort to put the teaching of American history 
and civics back in its rightful place in our school curriculum 
so our children can grow up learning what it means to be an 
American. This is a modest bill. It provides for improved 
testing of American history and civics so we can determine 
where history is being taught well and where it is being taught 
not so well, so that improvements can be made.
    We also know that when testing is focused on a specific 
subject, States and school districts are more likely to step up 
to the challenge and to improve performance. The American 
History Achievement Act gives the National Assessment Governing 
Board--we call it NAGB in Washington--the authority to 
administer a 10-State pilot study of the NAEP test in U.S. 
history in the year 2006. They already have that authority for 
reading, math, science, and writing.
    This pilot program should collect enough data to obtain a 
State-by-State comparison on 8th and 12th grade students' 
knowledge and understanding of U.S. history. The data will 
allow us to know which States are doing a better job of 
teaching American history and allow other States to model their 
program on those that are working well. It will also put a 
spotlight on American history that should encourage States and 
school districts to improve their efforts at teaching the 
subject.
    Teaching American history is a unique and special 
responsibility of our public schools. I can remember a meeting 
of educators in Rochester a few years ago, when I was president 
of the University of Tennessee. The then-president of Notre 
Dame University, Monk Malloy, was there. And he asked this 
question in a roomful of educators: What is the rationale for a 
public school? Well, there was an unexpected silence around the 
room, until Albert Shanker, the late president of the American 
Federation of Teachers, answered the question in this way. Mr. 
Shanker said the public school, the common school, was created 
to teach immigrant children the three R's and what it means to 
an American, with the hope that they would then go home and 
teach their parents.
    From the founding of our country, we have understood how 
important it is for our citizens to understand the principles 
that unite us as a country. Other countries are united by their 
ethnicity. If you move to Japan, for example, you can't become 
Japanese, really. But Americans, on the other hand, are united 
by a few things in which we believe. And to become an American 
citizen, you raise your hand and take an oath and subscribe to 
and learn those principles. If there were no agreement on these 
principles, as Samuel Huntington has noted, we would be the 
United Nations instead of the United States of America.
    Still, many children are growing up as civic illiterates, 
not knowing the basic principles that unite us. As Mr. Shanker 
pointed out, we cannot ignore the special mission of our public 
schools to teach our children what it means to be an American. 
And according to recent surveys, that is what the American 
people who pay the taxes want. Hart-Teeter recently conducted a 
poll of 1,300 adults. They asked what the principal goal of 
education ought to be. The top response was ``producing 
literate, educated citizens who can participate in our 
democracy.'' Twenty-six percent of the respondents said that 
should be our principal goal. Teaching math, reading, and 
writing was selected by only 15 percent. And you can't be an 
educated participant in our democracy if don't know our 
history.
    I have a longer statement that I will put in the record 
because I want to spend as much of the time as possible 
listening to our witnesses. But let me conclude my statement 
with this:
    I hope that the legislation that Senator Kennedy and I have 
proposed and we are discussing today will play a part in a 
whole variety of activities that are taking place here in 
Congress with the goal of lifting up the importance of American 
history for new Americans, for our children, and, really, for 
all of us. It is part of a broader effort. Last year, Senator 
Kennedy and I joined with Senator Reed, the Democratic leaders, 
and many Republican senators as well, to pass the American 
History and Civics Education Act. It passed by unanimous vote 
here in the Senate. The purpose was to help begin to create 
summer academies for outstanding teachers and students of 
American history and civics.
    The senator from New York, Senator Schumer, and I have 
introduced a bill to codify the oath of allegiance, which 
immigrants take when sworn in as new citizens. We want it to 
protect and honor in law just as the National Anthem and the 
Pledge of Allegiance are codified in law.
    Our children are growing up ignorant of our Nation's 
history. Teaching our children what it means to be an American 
is one of the principal reasons we created the public school.
    So it is right to put it back in its rightful place, and I 
look forward to our discussion today.
    Now I would like to turn to Senator Kennedy, who is the 
ranking member of our committee and an enthusiastic participant 
in this effort. He and I don't agree on everything, but we sure 
agree on this. And he has a special passion for American 
history because he and his family are such an important part of 
it.
    And to give credit where credit is due, it is his 
suggestion that brought Mr. McCullough here today. This hearing 
was scheduled for a couple of weeks earlier, and Ted said, 
well, since he is going to be here on the 30th, why don't we 
just move the hearing, invite him to come--and so David 
McCullough came.
    So, Senator Kennedy, why don't I ask you to make your 
opening comments. And if you would like to introduce Mr. 
McCullough, I would welcome your doing that.

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Well, thank you very much, Senator 
Alexander.
    I think, in listening to Chairman Alexander, I think just 
listening to him you can understand about his passion for this 
subject, and it has been infectious to all of us as one that 
loves history and cares deeply about it, learns from it, and 
also has listened to Dave McCullough on so many different 
occasions speak to it. We thank you, Senator Alexander, for 
your very, very strong leadership and all the things you are 
getting done. It is difficult around here to get many things 
done, and you have really demonstrated an ability to do it and 
have a lot of strong support for it. So, thank you so much.
    We are going to miss Shelby Foote, aren't we, Dave 
McCullough? We lost one of the good friends, one of the great 
historians, one that I think inspired so many Americans to 
understand one of the great times of American history, the 
Civil War. He was a very, very special person, special 
historian, and added immensely to America's understanding about 
the Civil War.
    I think for anyone that questions whether Americans are 
interested in history, all they have to do is pick up the Best 
Seller List year after year and see Dave McCullough's name on 
it. And there is one that I am just about three-quarters of the 
way through, ``1776,'' and I've had the good opportunity to 
read his other books, particularly ``John Adams'' and also 
``The Path Between the Seas.'' And the list goes on.
    It always seems that Americans have a terrific thirst for 
history. I think that Dave McCullough has just reminded us of 
that. And if we really miss the opportunity to give children in 
this country the opportunity to read history and to understand 
history and--including civic responsibility as well; I think 
Lamar outlined that--we miss a very, very important 
responsibility that we have. We can't insist that every child 
is going to develop a love of history or an understanding, but 
we sure can do everything we can to give that opportunity to 
young people. That is what our bill is really all about.
    We want to welcome Dave McCullough. As all of us know, we 
are fortunate in this Nation to have someone that has spent the 
time and the effort and energy to read and study and to help 
all of us understand better about what this country is about, 
what its values are about, what its challenges have been, and 
to give us the hope from those experiences to face the 
challenges that we have today. We are lucky to have him in 
Massachusetts as a resident. And we are proud to say that on a 
recent scoring for standards on history, Massachusetts got an 
A. So I am sure it is a great deal due to Dave McCullough. We 
are glad to have you here. We thank you very much for taking 
the time, being down here a good deal early to give us an 
opportunity to hear from you.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy

    Thank you, Mr. Chairman for convening this important 
hearing. We're fortunate to have such a distinguished panel 
with us today to discuss how our schools can improve the 
teaching and learning of America's past. We're honored that one 
of the Nation's great historians--David McCullough--could join 
us this afternoon.
    As you know, Mr. Chairman, I share your appreciation of the 
importance of history as the foundation for the Nation's 
continuing ideals and our schools can contribute immeasurably 
to each generation's commitment to those ideals. America's 
economy and security today require strong skills in math and 
science, and the No Child Left Behind Act supports the 
development of these skills. But our democracy and our future 
in the world depend on much more.
    It's no surprise that readers in droves are turning to 
David McCullough's ``1776.'' Anyone concerned about the 
quagmire in Iraq today can't help but be reassured that in the 
dark days of the Revolutionary War in 1776, we summoned the 
leadership to find our way out of that quagmire, and hopefully 
we can do it again. As George Santayana wrote in 1905, ``Those 
who cannot remember the past are condemned to repeat it.'' Or, 
as H. G. Wells put it in 1921, ``Human history becomes more and 
more a race between education and catastrophe.''
    Instilling appreciation of America's past--teaching the 
values of liberty, justice, equality, and civic 
responsibility--should be an important mission of every school. 
Thanks to the efforts of large numbers of teachers of history 
and civics in classrooms throughout America, we're making 
progress.
    According to the results of the most recent assessment by 
the National Assessment of Educational Progress, 4th and 8th 
grade students are improving their knowledge of American 
history. Children are using primary sources and documents more 
often to explore history, and are being assigned historical and 
biographical readings by their teachers more frequently.
    But much more remains to be done to advance their 
understanding of the subject. Students still consistently score 
lower on American history than on any other course. A recent 
study by Sheldon Stern--the Chief Historian Emeritus at my 
brother's Presidential Library in Boston--suggests that State 
standards for teaching American history need improvement. His 
research reveals that 22 States have American history standards 
that are either weak or lack clear chronology and appropriate 
political and historical context, or sufficient information 
about real events and people. As many as 9 States still have no 
standards at all for American history.
    Good standards matter. They're the foundation for teaching 
and learning in every school. Every State should have creative 
and effective history standards. Massachusetts began to do so 
in 2000, through a joint review of history standards by 
teachers, administrators, curriculum coordinators, and 
university professors. After monthly meetings and 3 years of 
development and revision, the State released a new framework 
for teaching history in 2003. Today, our standards in both 
American history and world history receive the highest marks.
    Higher academic achievement in reading and math obviously 
do not have to come at the expense of subjects such as history. 
Students can build literacy and number skills in a history or 
geography course too. Interdisciplinary approaches are 
consistent with the No Child Left Behind Act's promise of high 
quality education for each student.
    Achieving this goal requires better teacher preparation, 
better certification, and better support for new teachers. 
Greater investments are needed to improve the quality--not just 
the quantity--of student assessments. We must continue to 
support efforts under the No Child Left Behind Act such as the 
Teaching of Traditional American History program, to help 
teachers improve instruction.
    It's a privilege to join our Chairman, Senator Alexander, 
again in this Congress in introducing the American History 
Achievement Act, to establish a strong national commitment to 
teaching history and civics in the Nation's public schools. It 
will lay the foundation for higher standards and more effective 
ways of teaching about the Nation's past, and provides a more 
frequent and effective analysis of how well America's students 
are learning these important subjects.
    We've included civic education in the bill as well. The 
strength of our democracy and the health of our communities 
depend on informed, caring, and active citizens. We cannot 
protect our freedom without emphasizing the character of our 
citizens.
    Every young person should have an education that provides 
them with the skills they need to be good citizens, such as 
knowledge of Government, law, and democracy, and the ability to 
understand and analyze important issues of the day. We need 
high standards for civic education, more opportunities for 
internships and service-learning, and stronger partnerships 
between schools and community organizations to involve young 
people more fully in the life of their communities.
    Today's students will be better citizens in the future if 
they learn about our history and learn the skills needed to 
participate in our democracy.
    Senator Alexander. Mr. McCullough.

   STATEMENT OF DAVID McCULLOUGH, HISTORIAN AND AUTHOR, WEST 
                          TISBURY, MA

    Mr. McCullough. Senator Alexander, Senator Kennedy, I am 
very grateful and proud to be invited to say some things that 
have been on my mind for a good long time. And I want to start 
by emphasizing, I think, that our teachers are the most 
important citizens in our society. I don't think there is 
anyone doing work of greater value or work that will have more 
long-lasting effect than our teachers. I have a son who is a 
teacher, of whom I am extremely proud--a public school teacher. 
I know the difficulties that people in teaching have today, I 
know the opportunities there are, and I know how frustrating 
and sometimes discouraging the teacher's life can be today.
    Having said that, I think that we are sadly failing our 
children and have been for a long time, almost a generation, 
almost 25 years. And I see it personally when I visit as a 
guest lecturer or visiting professor at colleges and 
universities all over the country. I know the studies that have 
been made, the surveys, the tests that have been run on seniors 
in supposedly the top 50 universities in the country, and how 
abysmally they score. And I am convinced that what you are 
doing is the right thing. I think to bring testing, assessment 
of performance in the grade schools and high schools, public 
schools nationwide, is long overdue. And I certainly would 
second adamantly any further success that you can do from the 
Federal level to make this happen.
    I think the problem is essentially that we have been 
teaching our teachers the wrong way. We have too many teachers 
who have graduated with degrees in education, and they are 
assigned to teach history or biology or mathematics or English 
literature, and they don't know the subject. Now, there is 
progress being made concerning this. Former Senator David 
Boren, a colleague of yours, now the president of the 
University of Oklahoma, has taken a major step. You can no 
longer graduate from the University of Oklahoma as a 
prospective teacher without having majored in a subject. You 
can't major in just education.
    The teacher who doesn't know the subject is up against a 
big handicap in three ways, and consequently, therefore, the 
students are. Anybody trying to teach a subject they don't know 
has right away got a problem. But it is also impossible to love 
what you don't know, just as it is impossible to love someone 
you don't know. And we all know from our experience in school, 
those of us who were lucky enough to have wonderful teachers, 
the best teachers were the teachers that were really excited 
about what they were teaching. Their enthusiasm, their 
affection for what they were teaching was tangible.
    Miss Schmeltz, 6th grade: ``Come over here and look in this 
microscope. You're going to get a kick out of this.'' And you 
did, and you would never forget it.
    Two of my high school history teachers, Walter Jones, 
Robert Abercrombie, wonderful teachers, were enthusiastic about 
what they were teaching every day in every class.
    There was a great teacher of teachers at the University of 
Pittsburgh, Margaret MacFarland, professor of child psychology, 
whose most famous disciple, if you will, was Fred Rogers, Mr. 
Rogers, who reached more children than any teacher who ever 
lived. And Fred was someone I knew because of my work in Public 
Television. And he acknowledged openly to anyone that all of 
what he did was based on the teachings of Margaret MacFarland, 
which were, in essence, attitudes aren't taught, they're 
caught.
    It is the attitude of the teacher that is caught by the 
student, particularly at the grade school level. If the teacher 
is enthusiastic, if she or he loves what she is teaching, the 
child gets it immediately. And her admonition to teachers was, 
Show them what you love.
    So if a young person majors in art or music or history or 
mathematics or 19th century English literature, and can convey 
that love, that enthusiasm, that is the biggest step that can 
possibly be made in how we improve the teaching of all 
subjects.
    Now, if you don't know the subject, you find it hard to 
know it well enough to teach it, you don't love it, there is a 
third and very serious problem, and that is you are much more 
dependent on the textbooks. And the textbooks, alas, are by and 
large very dreary. Some are superb. Daniel Boorstin's one-
volume ``History of the United States'' is one of the best 
there is. Joy Hakim's relatively new multivolume history of the 
United States is superb.
    But others are dismal almost beyond describing. It is as if 
they had been written to kill any interest that a student might 
have in history. You read some of them and you wonder, Do they 
send children home with these as an act of punishment?--you 
know, you weren't very good today so you have to spend an hour 
a night reading this book.
    Now, for a long time it was said that children don't like 
to read; modern-day children don't like to read. And this was 
gospel among educators and publishers of books for education. 
So therefore they reduced the vocabulary, they dumbed it down. 
They increased the size of the print. They put in more 
illustrations and graphs and graphic art and gimmicks to try to 
pull them into reading the books that supposedly they don't 
like to read.
    And then, along came Harry Potter and blew all of that 
conventional wisdom right out of the water. Of course they will 
read something that is well-written. Of course they will be 
drawn to a book that is compelling to you or me or to anyone 
else. And I like to stress that the author of Harry Potter 
doesn't dumb down the vocabulary in the slightest. And the sad 
part of it is there are wonderful things that children could be 
reading today in history in the schools at every level.
    Now, because of the No Child Left Behind program, sadly, 
history is being put on the back burner or taken off the stove 
altogether in many schools, if not most schools, with the 
argument that we have to concentrate on reading and mathematics 
and science. Well, fine, to concentrate on the reading all they 
want. But they don't just have to read what is conventionally 
seen as literature. They can read the literature of history. 
And it is a very simple thing to start putting together the 
kinds of wonderful reading that many of us grew up on, that 
could be easily introduced to the No Child Left Behind reading 
program.
    The Midnight Ride of Paul Revere; Stephen Vincent Benet's 
``John Brown's Body''; Frederick Douglass's autobiography; Ben 
Franklin's autobiography; the speeches of Chief Joseph; 
Lincoln's Second Inaugural Address; Grant's memoirs; selections 
from Shelby Foote and Barbara Tuchman; the wonderful prose of 
Francis Parkman, ``The Oregon Trail.'' The list could be 
indefinite. Martin Luther King's ``Letter from Birmingham 
Jail.'' On and on. These are all not only major events in the 
history of our country, they are great literature. They have 
survived the test of time, just as literature of a conventional 
kind has. And this could be exciting. This could bring young 
people and their teachers into a love of history, which is 
essential.
    If we raise generation after generation of young Americans 
who are historically illiterate, we are running a terrible risk 
for this country. You could have amnesia of a society, which is 
as detrimental as amnesia of an individual. And of course, if 
people begin to think that all that we have, all the 
blessings--our freedoms, our art, our music, our literature, 
our great institutions, the faith, the creed we have that has 
held us together for 229 years in equality, and the idea that 
all men are created equal, the ideal of life, liberty, and the 
pursuit of happiness--if all of that seems to be something that 
just fell out of the sky, that it is just part of the natural 
world and that nobody struggled for it, there is no story 
behind it, then we are really, in my view, in the soup.
    Jefferson said it perfectly. He said, ``Any Nation that 
expects to be ignorant and free expects what never was and 
never can be.'' Our very freedoms depend on education, and that 
is why education has been a sustaining thing, one of the great 
guidelines all through our history, from the time of the 
founders down to the present.
    And we are falling down. The literacy rate in Massachusetts 
in 1776, I am sorry to say, was higher than it is today. We are 
raising children who don't know who George Washington was. 
Mount Vernon is about to build an $84 million visitors center 
so that when those little Americans get off those yellow school 
buses, they can have a quick indoctrination to know who George 
Washington was before they walk up the path to Mount Vernon, so 
that the visit to that house will mean something to them.
    This is no joke. And it isn't just apparent among students. 
It can be apparent among grownups. I had lunch 1 day with an 
editor of the op-ed page of a major newspaper in this country, 
a graduate of Yale University. And she was quite upset because 
she had just been to the Vietnam Memorial. And she said, ``I'm 
sorry if I seem upset. I've just been to see the Vietnam 
Memorial.'' And she said, ``Have you seen it?'' And I said, 
``Indeed I have.'' She said, ``Did you find it upsetting?'' I 
said, ``I certainly did, but I have to tell you that I went 
there on the same day that I went out to visit Antietam.'' And 
she said, ``What is Antietam?''
    I said, ``Well, maybe you're from the South and know it as 
Sharpsburg.'' She said, ``No, I have no idea what you're 
talking about.'' I said, ``There are 15,000 names on the 
Vietnam Memorial for a war that lasted 11 years. In 1 day at 
Antietam, which is a 40-minute drive from where you're sitting, 
there were 23,000 casualties. On a single day. And you've never 
heard of it. And you went to the same university I did. What's 
happening?''
    Well, one of the things that is happening is you can go to 
Yale, Harvard, Stanford, any number of the finest institutions 
that we are so rightfully proud of, and not major in any 
history whatsoever. It isn't required. One president of a 
university--a college, I should say--who is himself a 
historian, was asked why don't you require history? He said, 
``It's not popular.'' Well, I think that is a rule of judgment 
or a means of judgment we ought to dispense with.
    Now, will knowing history make one a better citizen? 
Absolutely. Will knowing history give us a sense of who we are 
and how we got to be where we are, and why we are the way we 
are? Absolutely. But history is also a source of pleasure. It 
is a source of infinite pleasure, the way art and music and 
literature are. And to deny our children that pleasure is to 
deny them a means of extending and enlarging the experience of 
being alive. Why would anyone want to be provincial in time 
anymore than to be provincial in space when the whole realm of 
the human experience is there for our enjoyment as well as our 
enlightenment?
    Harry Truman said the only new thing in the world is the 
history you don't know. Daniel Boorstin, who wrote the great 
one-volume history textbook of the United States and who was 
himself a front-rank historian and the Librarian of Congress, 
said trying to plan for the future without a sense of the past 
is like trying to plant cut flowers. And we are trying to plant 
thousands of cut flowers. And it isn't going to work.
    I think, personally, I think that we human beings are 
naturally interested in the past. All the great childhood 
stories began, ``Once upon a time, long, long ago.'' We all 
want to go back to know how it was back then, who did what and 
why. I don't think it is coincidental that the two most popular 
movies of all time are historical. They may not be historically 
accurate in total, but they are historically powerful: Gone 
With the Wind and Titanic.
    History is a natural human interest. And to make it boring, 
to make it dull, to make it insipid or sleep-inducing is really 
a shame, a tragedy. The great thing about history is it is 
about life. Every time you scratch the surface of the 
supposedly dead past, you find life, and you learn. Samuel 
Elliot Morrison, the great Harvard historian, said, ``History 
teaches us how to behave.''
    I feel so strongly about this, but I also know that the 
problem can be solved. There is no trick to it. Barbara Tuchman 
said you can do it; she explained how to do it in two words: 
Tell stories. And particularly to young people.
    And I would like to say in conclusion, in my view the 
concentration of effort should be put on children at the grade 
school level, 4th, 5th, 6th grade. If you can catch them then, 
you have them for life. And I know from experience that it 
works. Those little minds are like sponges, and they want to 
learn. We all know they can learn a language just like that, 
much faster than the rest of us. They can learn anything just 
like that.
    I taught a class one morning in Montgomery, Alabama, of 6th 
graders, explaining to them how the locks at the Panama Canal 
work, how a ship the size nearly of the Empire State Building 
can be lifted up 80 feet above sea level with nothing more than 
the power of gravity. And they got it. They understood it 
faster than an adult audience would. And I suddenly thought to 
myself, You could teach these people anything. They will go 
just as fast as you want to take them.
    So it isn't that this is a problem we can't solve. This is 
a problem we absolutely can solve. Go back to some basics, back 
to a good liberal arts education for everybody who teaches in 
our public schools, number one. And encourage those who want to 
teach history to major in history. And encourage those who 
teach history to give their students things to read that they 
themselves, all the rest of us, would also want to read. And 
never underestimate their capacity to be pulled in by wonderful 
writing about great subjects.
    Senator Alexander. Thank you, Mr. McCullough. I will now 
take 5 minutes or so and then turn to Senator Kennedy.
    You mentioned the No Child Left Behind legislation and its 
emphasis on reading, math, and science. And I mentioned in my 
remarks about how Albert Shanker had pointed out that the 
public school, the common school was created for a public 
purpose. I mean, school could teach math, science, and reading, 
but a common, public school has a special purpose. And part of 
that, he thought, was to help teach immigrant children, 
especially, what it means to be an American, with the hope they 
go home and teach their parents.
    Now, as we look for ways to do that from Washington, we 
have to be a little careful. For example, with No Child Left 
Behind, our emphasis on reading, science, and math may be at 
the expense of U.S. history, even though there is a section in 
the No Child Left Behind bill that Senator Byrd, put in, which 
authorizes $100 million a year for what he called traditional 
American history. So that is also part of No Child Left Behind.
    And we have worked, as I mentioned, on summer academies for 
outstanding teachers and students. And this legislation we are 
talking about today is to give States the option of comparing 
Tennessee's high school seniors and 8th graders with 
Massachusetts's high school seniors and 8th graders, as a way 
of putting a focus on it.
    I want to ask you if you have any other suggestions of how 
Federal resources can be used to encourage the teaching of 
American history without turning us into a national school 
board here in Washington, which we don't want to be. And I want 
to specifically ask you about an idea we have talked a little 
about before, and that is the idea of using our national 
monuments, historical homes--the Adams home, for example, The 
Hermitage in Tennessee--these places are all over America. They 
are often part of our National Parks system. You often talk 
about bringing history alive. I wonder if you have thought any 
more about the idea of combining some of our Federal monuments 
and institutions in places with putting a new and renewed 
emphasis on the teaching of American history?
    Mr. McCullough. I have indeed. I would like also to say I 
don't really think that the basis of our public school system 
was to teach new Americans, immigrants. The basis of our public 
school system began before the Constitution of the United 
States was written. It began with the Constitution of the 
Commonwealth of Massachusetts, which is the oldest written 
constitution still in use in the world today, written by John 
Adams, in which there is a paragraph unlike anything that had 
ever been written before, saying that it shall be the duty of 
the Government to teach everybody, to provide public education 
for everybody. And then he went on to list what those 
institutions should teach, and he listed just about 
everything--science, literature, history, natural history, on 
and on--and that these should be cherished by society.
    Washington said that real happiness could only come through 
education. They all said it over and over again, public 
education is essential. Jefferson's establishment of the 
University of Virginia was what he considered one of the great 
life works of his whole career.
    I think that the National Parks system, which has something 
like 300 historic sites, could be the vehicle, could be the 
venue, if you will, of a whole program of summer seminars for 
teachers, where they would come to Gettysburg or the Adams 
House at Quincy, or Monticello, or Mount Vernon, or The 
Hermitage, or the historic sites west of the Mississippi, in 
California, to learn about that place but, in learning about 
that place, learn much about a whole segment of the American 
story--which would not only enlarge and improve their interest 
in and ability to convey the details and the importance of 
those subjects, it would also set them in a position to be far 
more interesting and stimulating, even inspiring, to their 
students when they bring their students to that site.
    This is relatively inexpensive because the sites are there 
and the on-site Park Service people, the guides and historians, 
are superb historians. Sometimes they are the leading expert on 
that subject. So that we have a built-in wealth of marvelous 
historic sites and we have a built-in wealth of on-site people 
who know what they are talking about.
    One other quick point, Senator. I don't think we should 
just leave the job to the Federal Government or to the 
teachers. I think in many ways, as my daughter Dorie Lawson 
said at dinner one night to us, the trouble with American 
education is us, we who are parents and grandparents. We have 
to do more to talk about history with our children. We have to 
reinstate the dinner table conversation. We have to reinstate 
dinner.
    [Laughter.]
    And we have to take them to those historic sites ourselves. 
Don't wait for the school trip.
    Senator Kennedy has been taking his nieces and nephews and 
many of his family to historic places year after year. It is a 
wonderful family tradition. It ought to be a family tradition 
everywhere. Because those trips can change your life.
    I was taken to Monticello by a school pal and his mother 
and father on spring vacation when I was about 14. And I know 
it changed my life. It is what started me down the trail in my 
interest in history. And we should be giving our children the 
books that we liked when we were just discovering history, at 
whatever level. That should all be part of it.
    And you who are people in public prominence can do wonders 
individually, not just in your role as representatives in the 
Government. You can set a standard conspicuously of parental or 
grandparental involvement in what ought to be something we all 
enjoy talking about.
    Now, some young families will say, You don't understand, 
there is not enough time anymore for that. I can't find that 
acceptable. When you read that the average American family 
spends 3 to 4 hours a day watching television, surely there is 
time to have a common interest with your children or 
grandchildren about the history of this country.
    Senator Alexander. Thank you. As I turn it over to Senator 
Kennedy, your point about the national parks and the monuments 
being inspiring, I know that as a fact, after Senator Kennedy's 
most recent visit to the church in Richmond with his family, 
where Patrick Henry and Thomas Jefferson and George Washington 
walked through the door shoulder-to-shoulder and Patrick Henry 
made his famous speech, Ted nearly tackled me on the Senate 
floor the next week to tell me about it and how exciting it was 
to him and to the members of his family to go.
    Senator Kennedy?
    Senator Kennedy. Well, thank you. Thank you so much again, 
David, for reminding us all about what is possible in this 
area. You know, it is interesting, that back in 2001 we did 
have history listed as a required standard in the Senate 
version of the reauthorization of the Elementary and Secondary 
Education Act. That was one of the subjects. But in the 
conference of the No Child Left Behind Act, it was dropped. I 
was just talking with my staff about the reasons for it. But I 
can tell you, we will reconsider history standards in the next 
reauthorization in 2007.
    I think one of the things that I have listened to you talk 
about, the parks that we have and how we ought to get the 
teachers tied into this and these summer programs, I am going 
to talk to my chairman, to see if we can try and develop some 
kind of summer programs. Because we have these parks, as you 
well know, in Massachusetts--you mentioned the Adams, we have 
Lexington Park, you can go down to New Bedford and the 
magnificent parks down there that go back, the Whaling Museum--
and we have them really scattered, as you pointed out, across 
the country. And I think we ought to try to do something.
    I think for us, getting the States to develop these 
standards is enormously important, because to get the teachers 
to really pay attention to history and civics as a priority in 
school curriculum, this is where it really starts. This is part 
of the underlying Alexander and Kennedy legislation.
    You have been so eloquent on this subject, but what we need 
is continued upgrading of these teachers in these courses. How 
we can get the professional training we do require in the No 
Child if people are going to be graduates and teach us in the 
subjects in which they are going to teach. But this has to be a 
continuing process, I imagine, from what you are saying.
    You mentioned you get these good teachers. And while you 
were speaking about your good teachers, I was thinking about 
mine. I was lucky enough to have Arthur Holcombe, who wrote 
``Our More Perfect Union'' when I was at college. He described 
the Constitutional Convention, and every student felt that they 
were there. It was unbelievable that that kind of learning--
that everyone that would leave that course could hardly wait to 
go over to the library. We need continuing professional 
development, too, for these teachers.
    I think they want it, they need it, but we don't do it 
terribly well. And that is something that we have to give some 
focus on.
    I just want to thank you very much. It has been a very 
important challenge for us. I think Senator Alexander is up to 
it, and I will certainly be there as a spear carrier.
    Mr. McCullough. I would like to just add one more point. I 
am very optimistic about what can be done. I think the problem 
is very serious, and we have let it drag on much too long. But 
I know that these programs work. I am involved with the 
National Council for History Education, the NCHE, which was 
started by Theodore Rabb from Princeton and Kenneth Jackson 
from Columbia, two of our front-ranked historians. And the idea 
was to help improve the teaching of the teachers. And every 
summer, we have had seminars or clinics, call them what you 
will, where several hundred teachers come together for about 2 
weeks and they get involved, not just by hearing people speak 
about the art of teaching and what sources and books and so 
forth can be used, but the teachers themselves do some actual 
research. They get their hands dirty in the process of history, 
in the excitement of--detective-case excitement of history.
    And it never fails to work. They come away absolutely 
thrilled with the possibilities of what they can do in the 
classroom. And we have had nothing but volunteer professors, 
teachers, lecturers for years now, 15-20 years. And I know that 
if a program with the Park Service were to be established you 
could get the best people in the country to come and 
participate as an act of patriotism or citizenship. It isn't 
going to cost a great deal, and it works. It works.
    And we can change it. When you see what some programs are 
doing in colleges and universities, there is no question it can 
be turned around.
    Senator Alexander. Well, maybe Senator Kennedy and I can 
put our heads together and make that our next little project. 
As you mentioned, there are already a number of summer 
programs. The presidential academies are just getting started. 
The National Endowment for the Humanities had a teachers 
program at The Hermitage, which I attended last year, same kind 
of thing. But we could, at a relatively small expense, we could 
lift those up. And my experiences with the Governor's Schools 
that many States have is that a 2 week program for teachers 
fits the teachers' schedule very nicely and offers an inspiring 
opportunity that livens up the rest of the school year and 
infects them for another 3 or 4 years, when they go back to 
their schools. This infects other teachers. It is a benefit, 
really, that teachers don't have. Much of teachers' 
professional education is really pretty dull. It is a lot like 
legal professional education.
    Mr. McCullough. And they are wonderful people. Senator Byrd 
invited me to come down and speak to a conference of teachers 
in West Virginia a few years ago. And I went--and I don't know 
how many hundreds of teachers were there, filled a huge 
auditorium. And the enthusiasm, the vitality of that group of 
people--I came back buoyed up. I don't know whether I had any 
effect on them, but they had a huge effect on me. And I think 
that is a well of commitment and enjoyment in the subject 
matter that is just waiting to be tapped everywhere.
    Senator Alexander. Mr. McCullough, thank you for changing 
your schedule and being with us today.
    Mr. McCullough. Thank you, sir.
    Senator Alexander. I have ``1776'' on my bedside table. 
Senator Kennedy's a little ahead of me in terms of reading it.
    Mr. McCullough. Well, the test isn't until September, so 
you are okay.
    [Laughter.]
    Senator Alexander. We will now welcome the second panel to 
come up. Let me introduce all three of our guests and invite 
each of you, if you will, to summarize your comments in about 5 
minutes. If you can do that, and then that will give us a 
chance to ask questions and to discuss the legislation and 
other things you would like to say.
    I am going to make my introduction brief. Charles Smith is 
executive director of the National Assessment Governing Board. 
He runs the 26-member National Assessment Governing Board, 
which Congress established in 1988. Mr. Smith and I have known 
each other a long time. He has a distinguished career in 
Tennessee, in education, as a university president, as 
chancellor, as commissioner of education. I am delighted that 
he is joining us today.
    Stephanie Norby is director for the Smithsonian Center for 
Education and Museum Studies. She manages Smithsonian's 
Smithsonian-wide museum education programs for museum 
professionals and educators. She has 26 years of experience in 
education as a classroom teacher, school district 
administrator, and museum educator. And we welcome you.
    And I want to invite Senator Reed, if he would like to 
introduce our other witness and make any comments he would 
like, and then we will go in the order of introduction and ask 
each of you to present your testimony.
    Senator?
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing.
    I am delighted to be able to introduce James Parisi, who is 
testifying this afternoon. Jim is the field representative for 
the Rhode Island Federation of Teachers and Health Care 
Professionals. He has worked there for over 10 years. And he is 
also working to enhance the study of American history and civic 
education nationally in Rhode Island. He brings to this hearing 
an important perspective as he is helping Rhode Island develop 
standards. In fact, yesterday, legislation passed the Rhode 
Island General Assembly that will set standards for history and 
civic education, which is a result of his efforts.
    I am pleased that Rhode Island, under Jim's urging and with 
his great advocacy, is taking this step forward. And I want to 
commend you for your efforts, Jim.
    I am pleased Jim could be here today, Mr. Chairman, and I 
look forward to his testimony.
    Senator Alexander. Thank you, Senator Reed. Mr. Parisi, 
welcome.
    Mr. Smith?

 STATEMENTS OF CHARLES E. SMITH, EXECUTIVE DIRECTOR, NATIONAL 
   ASSESSMENT GOVERNING BOARD; STEPHANIE L. NORBY, DIRECTOR, 
SMITHSONIAN CENTER FOR EDUCATION AND MUSEUM STUDIES; AND JAMES 
   PARISI, FIELD REPRESENTATIVE, RHODE ISLAND FEDERATION OF 
               TEACHERS AND HEALTH PROFESSIONALS

    Mr. Smith. Thank you, Mr. Chairman, Senator Reed. It is a 
great pleasure to be here today, and I appreciate the 
invitation.
    I also think I would be remiss if I didn't note for the 
record of this committee hearing that the role that Chairman 
Alexander has played in the development of the organization 
that I have held, that he and Senator Kennedy were two very key 
players back in the late 1980s, when a blue ribbon committee 
was commissioned to take a look at National Assessment of 
Education Progress. And out of that set of deliberations and 
recommendations came the recommendation to Congress that the 
board I serve be created and that there be State-based NAEP and 
that there also would be a role played by the governing board 
that I serve to set the standards, to develop the frameworks. 
And all of that has led us to where we are today.
    So, Mr. Chairman, I commend you for what you have done. I 
should say, too, that Senator Kennedy took that ball from the 
committee and was the key sponsor, the key supporter of the 
legislation that resulted in the creation of our board. We are 
deeply grateful for all that you have done.
    Let me say at the outset that responding to the needs of 
Congress and other policymakers at all levels of Government is 
our reason for being. You have continually looked to the 
Nation's Report Card as a reliable and valid source of useful 
data on the academic performance of our Nation's students. And 
let me assure you that we take that charge very seriously.
    Mr. Chairman, you have asked that my testimony address the 
provisions of S. 860 and provide results from the NAEP surveys 
in U.S. history and civics. In written materials provided to 
this subcommittee prior to this meeting, considerable detail 
has been provided. This afternoon, my comments will focus on 
just a few highlights to meet the constraints that the chairman 
set in regard to time.
    Let me say that your bill captures the essence of the 
importance of our Nation's youth knowing and understanding who 
we are as a people, how we have gotten to where we are in our 
200-plus-year history, and the responsibilities that we bear as 
citizens of this great country. The bill also underscores, in 
my judgment, the troubling reality of significant deficiencies 
in what American students know about their Nation's history and 
their civic duties.
    It is essential, I believe, that policymakers at all levels 
have access to the outcomes of teaching and learning in these 
two subjects. The Nation's Report Card has a basic 
responsibility to shine the light on results, and I believe it 
has done just that--in the U.S. history in 1994, in 2001; and 
in civics in 1998. I might say, too, and I will say a little 
bit more about it later, both subjects will be assessed again 
next year.
    As is noted in the bill before you today, the student 
achievement results of previous NAEP assessments are cause for 
great concern. Your bill specifies in some detail some examples 
of these deficiencies. What students don't know about U.S. 
history and civics, we recognize, is significant. We have to be 
troubled by a finding from the 2001 U.S. history assessment 
that 57 percent of 12th graders scored below the basic level of 
achievement, a percentage unchanged from the 1994 assessment.
    Failure to achieve basic means that the majority of 12th 
graders were unable to identify the significance of many 
people, places, events, dates, ideas, and documents in U.S. 
history. It also means that they fail to relate relevant 
experience from the past in understanding contemporary issues. 
The list goes on, and in the written testimony that has been 
provided to you, we provide some more examples.
    In civics, the picture that emerged from the 1998 
assessment is not quite as gloomy as that for history, but it 
is also a cause for concern nonetheless. More than a third of 
the 12th graders fell below the basic level of achievement in 
civics. This means that more than one in three members of this 
Nation's class of 1998, a group approaching or at voting age at 
the time they took the assessment, did not demonstrate an 
understanding of the principles of American Government, its 
structure of checks and balances, and the roles of political 
parties and interest groups on our democracy.
    I might say and should say that in both U.S. history and 
civics, the news was not all bad. On the positive side, 4th and 
8th graders in both subjects achieved at or above basic in 
percentages significantly higher than those of the 12th 
graders. Also, the findings in U.S. history showed that the 
scaled scores for both 4th and 8th graders increased between 
1994 and 2001. The position results were tempered, though, by 
the finding that in both subjects the percentages of students 
achieving at or above basic declined in the progression from 
4th to 12th grades.
    Also, at all three grades, in both subjects, the percentage 
below basic is much higher in general for minority students 
than for white students.
    In closing, I offer just three quick comments. Point one 
regards Finding 3 of the acts that states, and I quote: 
America's past encompasses great leaders and great ideas that 
contribute to our shared heritage and to the principles of 
freedom, equality, justice, and opportunity for all.
    Mr. Chairman, the results of NAEP assessments raise serious 
questions about how well these noble principles are being 
transmitted to and absorbed by rising generations of young 
adults. The disparate performance between minority and 
nonminority students in U.S. history and in civics is 
egregious. It poses challenges to our Nation's progress in 
achieving those very principles.
    Point two. The current NAEP legislation makes the governing 
board responsible for determining the schedule of subject and 
grades to be assessed by NAEP. I am pleased to report that the 
governing board adopted last month a schedule of assessments 
that provides for the assessment of U.S. history and civics 
once every 4 years into the future. As noted earlier, U.S. 
history and civics assessments in grades 4, 8, and 12 at the 
national level were already scheduled for 2006. Under the new 
schedule, assessments in these two subjects at all three grades 
will also be conducted in 2010 and 2014.
    And finally, point three. The American History Achievement 
Act provides for trial State assessments in at least 10 States 
that are geographically diverse. Because a number of 
prerequisite steps are required in the year before a State 
level assessment is conducted, funding must be provided both in 
the year before and the year of the assessment, which your bill 
does indeed provide for. These prerequisite steps include 
identification of participating States, drawing a sample of 
schools and students, working directly with the schools to 
provide an orientation to the assessment, and printing test 
booklets. Therefore, there is reason to believe that, with 
adequate notice, appropriate outreach, and targeted follow-up, 
achieving voluntary participation of 10 States at grade 8, we 
believe, is a reasonable and attainable goal.
    However, in contrast to NAEP's 15 year experience securing 
participation for State-level assessments in grades 4 and 8, 
NAEP has never conducted State-level assessments at grade 12. 
We know that at the national level, obtaining the cooperation 
of high schools to participate in 12th grade NAEP is more 
challenging than at grades 4 and 8, and that participation 
rates are much lower at grade 12 than at grades 4 and 8. 
Obviously, however, at the direction of Congress and with the 
provision of the appropriations that are sufficient and timely, 
you may be assured that NAGB will make every effort to address 
this issue effectively.
    In conclusion, Mr. Chairman, Senator Reed, it is 
commendable that you, Senator Kennedy have introduced this act 
and that you are conducting this hearing. I, again, appreciate 
this opportunity to speak and, at the appropriate time, I will 
be happy to respond to questions.
    Senator Alexander. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of Charles E. Smith

    Chairman Alexander and members of the subcommittee, thank you for 
the opportunity to testify on the American History Achievement Act. I 
am Charles E. Smith, Executive Director of the National Assessment 
Governing Board. The Governing Board was created in legislation 
introduced in 1988 by Senator Kennedy, developed to reauthorize the 
National Assessment of Educational Progress (NAEP). The legislation 
also provided for the first-ever state-by-state NAEP results and for 
standards-based reporting by NAEP. Senator Kennedy's bill implemented 
recommendations made in 1987 by a national study group charged with 
improving NAEP's usefulness. The study group, comprised of highly 
respected leaders in education, was chaired by then Tennessee governor 
Lamar Alexander. One of the members of the study group was the First 
Lady of Arkansas at the time, Hillary Rodham Clinton.
    It is with a profound sense of appreciation for your and Senator 
Kennedy's continuing support for NAEP's role in providing information 
useful to educators and policymakers, that I appear before you today.
    Mr. Chairman, you have asked that my testimony address the 
provisions of S. 860--the American History Achievement Act--and results 
from the National Assessment of Educational Progress in U.S. history 
and civics. I will provide selected NAEP results first. The Findings 
section of the American History Achievement Act already includes a 
listing of data drawn from the 2001 U.S. history assessment and I will 
augment those results. The remainder of my testimony will address the 
provisions of S. 860.

NAEP Results in U.S. History and Civics

    Recent events remind us that our ability to survive as a Nation 
depends on our belief in the value of our purposes as a Nation. Schools 
are the primary means for transmitting these purposes to each new 
generation--through instruction in U.S. history and civics. It is 
essential that students leave school with a deep understanding of the 
ideas, traditions, and democratic values that bind us with our fellow 
citizens and that serve as a compass that guides our societal and 
individual decisions.
    Likewise, it is essential to shine a light on the outcomes of 
teaching and learning in U.S. history and civics and on successful or 
promising instructional practices. Mr. Chairman, you and the 
subcommittee are to be commended for the light that will be shined on 
these topics by conducting this important hearing today.

Achievement in U.S. History

    The NAEP results in U.S. history for 1994 and 2001 and in civics 
for 1998 present a somewhat mixed but troubling portrait of student 
achievement in these subjects. The NAEP achievement results listed in 
the Findings section of the American History Achievement Act indicate 
that U.S. students have significant deficiencies in the knowledge of 
our Nation's history. Of particular concern is the finding from the 
2001 U.S. history assessment that 57 percent of 12th graders scored 
below the Basic level in U.S. history and that this was unchanged from 
the 1994 assessment.
    There are three achievement levels reported by NAEP: Basic, 
Proficient, and Advanced. The Basic level represents partial mastery of 
the knowledge and skills prerequisite for the Proficient level. The 
Proficient level denotes competency over challenging subject matter. 
The Advanced level signifies superior performance.
    The results in U.S. history in 2001 by achievement level and grade 
are displayed in Table 1:

           Table 1.--Percentage at Achievement Levels by Grade
                    NAEP U.S. History Assessment 2001
------------------------------------------------------------------------
                                  Below
                                  Basic     Basic   Proficient  Advanced
------------------------------------------------------------------------
Grade 4.......................        33        49         16          2
Grade 8.......................        36        48         15          2
Grade 12......................        57        32         10          1
------------------------------------------------------------------------
* Totals by grade may not add to 100 due to rounding.

    Please note that, as the student grade level increases, the 
percentage below Basic increases and the percentage at Proficient 
decreases. At 4th grade, 33 percent are below Basic; at 8th grade, 36 
percent; and at 12th grade, 57 percent. At the Proficient level, the 
percentages are 16, 15, and 10, respectively, for 4th, 8th, and 12th 
grade.
    To illustrate the meaning of these results, please consider what it 
means for 57 percent of 12th graders not to have reached the Basic 
level on the U.S. history assessment. At the Basic level in U.S. 
history at the 12th grade, student responses indicate the ability to:
    <bullet> identify the significance of many people, places, events, 
dates, ideas, and documents in U.S. history;
    <bullet> recognize the importance of unity and diversity in our 
social and cultural history;
    <bullet> understand America's changing relationships with the rest 
of the world;
    <bullet> relate relevant experience from the past in understanding 
contemporary issues;
    <bullet> understand the role of evidence in making an historical 
argument.
    This means that the majority of 12th graders did not know, for 
example: (1) that the Monroe Doctrine expressed opposition to European 
colonization in the Americas at the early part of the 19th century; (2) 
how Government spending during the Great Depression affected the 
economy; and (3) that the Soviet Union was an ally of the U.S. in World 
War II.
    However, there were some positive signs in the NAEP results. The 
average score of 4th graders increased from 205 to 209 and of 8th 
graders from 259 to 262 between 1994 and 2001. The gains for 4th 
graders between 1994 and 2001 were for the lowest performing students, 
that is, those at the 10th and 25th percentiles. At 8th grade, gains 
were found for students at the 25th, 75th and 90th percentiles. 
However, at the 12th grade, there were no differences in achievement 
between 1994 and 2001 at any point along the performance distribution.
    Other positive signs were in the narrowing of differences in 
average score by race/ethnicity. At the 4th grade there was a 7 point 
narrowing of the average score between white and African-American 
students between 1994 and 2001. At the 12th grade there was a 7 point 
narrowing of the average score between white and Hispanic students. But 
at the 8th grade, the achievement gap between these groups was 
unchanged.
    Although the narrowing of average score differences between 
minority and non-minority student demographic groups is positive, the 
differences when looking at the percentage below Basic in 2001 are 
stark and worrisome.

                         Table 2.--Percentage at Students Below Basic by Grade and Race
                                        NAEP U.S. History Assessment 2001
----------------------------------------------------------------------------------------------------------------
                                                                                                         Asian/
                                                                  White    African  Hispanic   Native    Pacific
                                                                          American            American  Islander
----------------------------------------------------------------------------------------------------------------
Grade 4.......................................................        21        56        58        47        29
Grade 8.......................................................        25        62        60        50        32
Grade 12......................................................        51        80        74        66        47
----------------------------------------------------------------------------------------------------------------

    There are important observations to share about the data in Table 
2. First, at grades 4 and 8, the percentage below Basic is much higher 
in general for minority students than for white students, and twice as 
high or more for African American, Hispanic, and Native American 
students than for white students. As with the overall results displayed 
in Table 1, the percentage below Basic increases as the grade increases 
for each respective group. At grade 12, the percentage below Basic for 
any group should be viewed as unacceptable, but the results for African 
American, Hispanic, and Native American students, respectively, at 80 
percent, 74 percent, and 66 percent below Basic should be viewed as 
devastating.

Achievement in Civics

    I will now turn to the NAEP civics results. The results from the 
civics assessment in 1998 also indicate that improvement is needed. 
About these findings, the well-known scholar R. Freeman Butts observed, 
``These findings are . . . disturbing . . . for our citizenship itself 
is at stake.''

     Table 3.--Percentage of Students at Achievement Levels by Grade
                      NAEP Civics Assessment 1998*
------------------------------------------------------------------------
                                  Below
                                  Basic     Basic   Proficient  Advanced
------------------------------------------------------------------------
Grade 4.......................        31        46         21          2
Grade 8.......................        30        48         21          2
Grade 12......................        35        39         22          4
------------------------------------------------------------------------
* Totals by grade may not add to 100 due to rounding.

    Although the percentage below Basic in civics is lower than in U.S. 
history at all three grades, and the percentage at proficient is 
higher, the results of the 1998 civics assessment are still troubling.
    It is important to point out that 35 percent of 12th graders did 
not reach the NAEP Basic level and that the percentage below Basic is 
higher at the 12th grade than at the 4th or 8th grade. These young 
citizens, approaching or at voting age, do not demonstrate an 
understanding of the principles of American Government, its structure 
of checks and balances, and the roles of political parties and interest 
groups in our democracy. Students at or above the NAEP Proficient level 
in civics have a good understanding of how governments and 
constitutions work and the ability to apply what they've learned to 
concrete situations. However, it is worrisome that only 26 percent of 
12th graders were at or above the Proficient level.
    At the Basic level in civics at the 12th grade, student responses 
indicate:
    <bullet> understanding that constitutional Government can take many 
forms;
    <bullet> knowledge of the fundamental principles of American 
constitutional Government and politics;
    <bullet> familiarity with both rights and responsibilities in a 
democratic society;
    <bullet> recognition of the value of political participation.
    This means that 35 percent of 12th graders in 1998, for example, 
(1) could not list two ways in which the American system of Government 
is designed to prevent absolutism and arbitrary power; (2) did not know 
that the President and the State Department have more authority over 
foreign policy than either Congress or the courts; and (3) did not know 
that the Supreme Court used the 14th Amendment to the Constitution to 
invalidate State laws that segregate public schools.
    As with U.S. history, the results show, generally, that the 
percentage below Basic increases as students progress through the 
grades and that much larger percentages of minority students are below 
Basic than white students. At all three grades, differences in the 
percentage below Basic between white students and African American, 
Hispanic, and Native American students are more than two to one.

                         Table 4.--Percentage of Students Below Basic by Grade and Race
                                           NAEP Civics Assessment 1998
----------------------------------------------------------------------------------------------------------------
                                                                                                         Asian/
                                                                  White    African  Hispanic   Native    Pacific
                                                                          American            American  Islander
----------------------------------------------------------------------------------------------------------------
Grade 4.......................................................        21        52        57        46        29
Grade 8.......................................................        20        50        55        51        29
Grade 12......................................................        27        58        56        56        34
----------------------------------------------------------------------------------------------------------------

    Finding 3 of the American History Achievement Act states that 
``America's past encompasses great leaders and great ideas that 
contribute to our shared heritage and to the principles of freedom, 
equality, justice, and opportunity for all.''
    Mr. Chairman, the data cited above raise serious questions about 
how well these noble principles are being transmitted to and absorbed 
by rising generations of young adults. The disparate performance 
between minority and non-minority students in U.S. history and in 
civics is egregious and poses challenges to our Nation's progress in 
achieving those very principles. Aristotle said, ``If liberty and 
equality. . .<plus-minus>`are chiefly to be found in democracy, they 
will be attained when all persons alike share in the Government to the 
utmost.'' Are not the chances of all our citizens sharing equally in 
Government lessened if the knowledge about the core principles and 
history of that Government is unequal?

The American History Achievement Act

    The American History Achievement Act consists of amendments to the 
current authorizing legislation for the National Assessment of 
Educational Progress. It amends the authorizing legislation by:
    (1) calling for assessments in history at least once every 4 years;
    (2) authorizing trial State assessments in U.S. history and civics 
in grades 8 and 12, with priority given to conducting assessments in 
U.S. history;
    (3) assigning the National Assessment Governing Board the 
responsibility for identifying and selecting participating States, in 
consultation with the Commissioner for Education Statistics;
    (4) authorizing appropriations for these purposes for NAEP 
operations and the Governing Board.

Schedule of U.S. History and Civics Assessments

    The current NAEP legislation makes the Governing Board responsible 
for determining the schedule of subjects and grades to be assessed by 
NAEP. The Governing Board maintains a schedule of assessments with a 
minimum 10-year outlook to allow advance notice to NAEP participants 
and sufficient time to plan for NAEP operations.
    I am pleased to report that the Governing Board, just a few weeks 
ago at its quarterly meeting of May 19-21, 2005, adopted a schedule of 
assessments that provides for the assessment of U.S. history and civics 
once every 4 years. The newly adopted assessment schedule revises and 
extends the current schedule through the year 2017.
    U.S. history and civics assessments in grades 4, 8, and 12 at the 
national level were already scheduled for 2006. Under the new schedule, 
assessments in U.S. history and civics in grades 4, 8, and 12 at the 
national level will also be conducted in 2010 and 2014. In addition to 
monitoring progress within grades over time, the once every 4-year 
schedule provides the added advantage of aligning with the cohort 
progression from grades 4 to 8 and grades 8 to 12. These assessments 
will continue a trend line of assessments in U.S. history conducted in 
1994 and 2001. In civics, these assessments will continue a trend line 
with a base year of 1998.

Trial State Assessments in Grades 8 and 12

    The American History Achievement Act provides for the conduct of 
trial State assessments in U.S. history and civics at grades 8 and 12 
in at least 10 States that are geographically diverse. Because a number 
of prerequisite steps are required to be carried out in the year before 
a State level assessment is conducted, funding must be provided both in 
the year before and the year of the assessment. These prerequisite 
steps include identification of participating States, drawing the 
sample of schools and students, working directly with the schools to 
provide an orientation to the assessment, and printing test booklets.
    In contrast to the requirement under title I that States receiving 
funding must participate in NAEP reading and mathematics assessments in 
grades 4 and 8 every 2 years, State participation in NAEP U.S. history 
and civics assessments at grades 8 and 12 would be voluntary. Eliciting 
voluntary State participation at grade 12 would pose new challenges for 
NAEP that will be discussed in detail below.
    The American History Achievement Act provides that only grades 8 
and 12 will be assessed at the State level. This appears to recognize 
that significant variation exists from state-to-state in U.S. history 
and civics curricula by grade 4, making this grade less appropriate as 
an object of State level assessment. On the other hand, by grades 8 and 
12, it is likely that students have been exposed to instruction in U.S. 
history and civics. These grades are also important for assessment 
purposes because they represent important transition points in 
schooling in the U.S. Grade 8 generally represents the transition point 
to high school, and grade 12 marks the end of K-12 schooling in the 
U.S. and the transition point to adult pursuits--college, training for 
employment, and entrance into the military.
    While grades 8 and 12 are important points in American education, 
NAEP's experience at the State level at the respective grades is vastly 
different. From 1990 to 2002, State level participation in NAEP was 
strictly voluntary, was limited to grades 4 and 8, and involved only 
the subjects of reading, mathematics, science, and writing. Mandatory 
State level participation in grades 4 and 8 in reading and mathematics 
became a legislated requirement in 2003 under title I. State level 
participation in science and writing assessments at grades 4 and 8 
remains voluntary. Voluntary State level participation at grades 4 and 
8 from 1990 to the present across the four subjects offered has been 
solid, generally reaching between 40 and 44 States per assessment.
    Therefore, there is reason to believe that, with adequate notice, 
appropriate outreach, and targeted follow up, achieving the voluntary 
participation of 10 States at grade 8 is a reasonable goal. However, in 
contrast to NAEP's 15-year experience eliciting participation for 
state-level assessments at grades 4 and 8, NAEP has never conducted 
state-level assessments at grade 12. We know that, at the national 
level, obtaining the cooperation of high schools to participate in 12th 
grade NAEP is more challenging than at grades 4 and 8, and that 
participation rates are much lower at grade 12 than at grades 4 and 8.
    Mr. Chairman, the Governing Board's primary role is to oversee and 
set policy for NAEP, in accordance with legislative guidance. I want to 
assure you that, upon enactment of the American History Achievement Act 
and provision of appropriations that are sufficient and timely, the 
Governing Board will commit to doing its utmost to elicit the voluntary 
participation of 10 States in assessments of U.S. history and civics at 
grade 8 and at grade 12.

Conclusion

    Mr. Chairman, it is commendable that you and Senator Kennedy have 
introduced the American History Achievement Act and that you are 
conducting this hearing. As the bill so eloquently states: ``. . . the 
strength of American democracy and our standing in the world depend on 
ensuring that our children have a strong understanding of our Nation's 
past.''
    Regrettably, the NAEP results, especially at the 12th grade and by 
race/ethnicity, give cause for concern about the state of knowledge of 
American students about U.S. history and civics. We ignore at our own 
peril the implications of these results for our Nation's future.
    Drawing from her remarks about the NAEP U.S. history and civics 
results, I would like to close with these quotes made by former 
Governing Board member Diane Ravitch: ``Preparing our youth to be 
responsible members of a democratic society is one of the most 
important missions of American education.'' ``Our ability to defend--
thoughtfully and intelligently--what we as a Nation hold dear depends 
on our knowledge and understanding of what we hold dear.'' ``We cannot 
be content when so many . . . are so poorly prepared.''

    Senator Alexander. Ms. Norby?
    Ms. Norby. On behalf of the Smithsonian Institution, I 
would like to thank the members of the subcommittee for this 
opportunity to testify on the strengthening American history 
and civics instruction in our schools.
    As Mr. McCullough mentioned, classroom teachers aren't the 
only ones responsible for ensuring that our children understand 
history and the duties of citizenship. All of us in the 
scholarly community share this responsibility. And the 
Smithsonian as our national museum has unique resources to 
commit to this effort, with nine research centers, 18 museums, 
thousands of scholars, and millions of artifacts.
    Today what I would like to do is talk about three ways in 
which we are using these resources to support the teaching of 
American history and civics. First, for teachers, through 
professional development and curriculum resources and, for 
students, through specific programs that are offered 
nationwide.
    First I will talk about professional development. The 
Smithsonian offers in-depth week-long seminars in Washington, 
DC. and workshops in communities across the country. I would 
like to describe a typical seminar focusing on teaching 
Colonial history.
    In the morning, teachers work directly with historians. For 
example, they look over the shoulder of Doug Owlsley, who is a 
forensic anthropologist, as he examines recently unearthed 
skeletons from Jamestown. Or they work with Doug Mudd, who is a 
numismaticist, who compares Colonial currency; or Harry 
Rubenstein, a curator, to analyze the purpose and symbolism of 
George Washington's uniform. These experiences bring the past 
to life. They deepen our understanding about what historians do 
and they generate excitement. As Mr. McCullough pointed out, 
they reinvigorate the pleasure of history. Then, based on these 
experiences, teachers also work with Smithsonian staff to find 
ways to replicate these experiences in their own classrooms 
using resources from their own communities, using reproductions 
or even digital images. In this way, they can share the thrill 
of discovery with their own students.
    Usually, we develop these programs in partnership with a 
school district or an organization like Advanced Placement 
College Board. Recently, our work in school districts in 
Arizona, Louisiana, Maryland, New York, and North Carolina has 
been funded by the Teaching American History grants 
administered by the U.S. Department of Education.
    Our curriculum resources are also based on Smithsonian 
scholarship and our experiences working with teachers. Our 
central education Web site, Smithsonianeducation.org, is a 
gateway to nearly 1,000 resources that includes lesson plans, 
Web sites, and now even video streaming.
    This fall we will launch a new Web site, Smithsonian 
Source, that will be devoted exclusively to history and civics 
instruction. What makes this site unique is that it is designed 
by teachers for teachers in consultation with Smithsonian 
scholars. In a sense, it is the Smithsonian collection, as 
curated by educators, representing the body of work from our 
collaborations through the Department of Education grants. So 
it replicates virtually the week-long experiences in 
Washington, DC., with video streaming of curators modeling how 
to look at evidence, like a portrait or a photograph; digital 
images, so students can practice these skills to investigate a 
specific topic, like civil rights; and background information 
vetted by Smithsonian historians that teachers can trust.
    We also disseminate this information through a biannual 
publication called Smithsonian In Your Classroom, which is sent 
free to 83,000 elementary and middle schools in the United 
States. So for the issue on Colonial money, for example, it 
includes a background essay, full-color, accurate reproductions 
of a sampling of Colonial money, and teaching ideas on how to 
use it in the classroom.
    Our annual Smithsonian Teachers Night in Washington, DC. 
and cities around the country is an opportunity to widely 
disseminate these resources, with 4,000 teachers attending this 
event last year.
    I would like to turn now to students. I have talked about 
professional development and curriculum resources that we 
provide to teachers, but will the difference it will make 
interest the lives of students?
    Distance learning is extending our reach right into the 
classroom, taking Smithsonian scholarship and collections 
directly to those students. This year, virtual field trips 
enabled thousands of school children to witness the opening of 
the National Museum of the American Indian. Other students 
participate in point-to-point video conferences with 
Smithsonian staff. Imagine a high school student who is reading 
``1776'' and then participates in a video conference to examine 
George Washington's uniform as a symbol of his leadership. 
Other students viewed a virtual field trip of our Witness to 
History exhibition and then participated in online chats about 
how our world has changed since 9/11.
    Even our science museums are committed to these efforts. 
For example, the Smithsonian Tropical Research Center in Panama 
uses the Internet to work with students and teachers in the 
United States to help them understand the connection between 
biodiversity research and international environmental policies.
    These experiences can have a profound effect on students, 
motivating them to want to learn about American history and 
inspiring them to be better citizens themselves.
    Finally, I would like to take a few minutes to talk about 
partnerships with national leadership organizations. We are 
currently working with the Council for Chief State School 
Officers and the National Board for Professional Teaching 
Standards to forge formal partnerships that will make these 
resources more widely available.
    In this brief overview, I hope I have conveyed the ways in 
which the Smithsonian is reaching out into schools across the 
country, and I commend the committee for its efforts to improve 
American history and civics. I welcome the chance to assist you 
in any way that I can.
    Senator Alexander. Thank you, Ms. Norby.
    [The prepared statement of Ms. Norby follows:]

                Prepared Statement of Stephanie L. Norby

    On behalf of the Smithsonian Institution, I would like to thank the 
members of the subcommittee for this opportunity to testify on how to 
strengthen American history and civics in our schools.
    Classroom teachers are not the only ones responsible for ensuring 
that our children understand our history and the duties of citizenship. 
All of us in the scholarly community have an obligation to assist in 
this effort. The Smithsonian--with its 9 research centers, 18 museums, 
hundreds of scholars, and millions of artifacts--has a special 
obligation. My purpose today is to describe the unique opportunities 
the Smithsonian offers teachers of American history and civics, and to 
share with you some of the things we have learned from those teachers.
    As director of the Smithsonian Center for Education and Museum 
Studies, I have the privilege of overseeing the Smithsonian's museum-
based education programs and our educational outreach initiatives. 
Today I would like to tell you about three aspects of our work: 
professional-development programs for teachers, curriculum development, 
and programs that reach students directly in classrooms nationwide.

                        PROFESSIONAL DEVELOPMENT

    The Smithsonian offers in-depth weeklong history seminars in 
Washington, D.C., and workshops in communities across the country. 
Usually, we develop these programs in partnership with a school 
district, or with an organization like Advanced Placement College 
Board. Recently, our work with school districts in Arizona, Louisiana, 
Maryland, New York, and North Carolina has been supported by Teaching 
American History Grants administered by the U.S. Department of 
Education. From such collaborations, we know that teachers, 
particularly at the elementary school level, need to build their 
subject knowledge. The average elementary-school teacher takes only one 
college course in American history.
    In a Smithsonian program, a teacher can peer over a historian's 
shoulder as, together, they do the detective work of primary-source 
scholarship. Imagine a teacher from San Francisco working side-by-side 
with a Smithsonian forensic anthropologist to gather clues about life 
in colonial Jamestown from newly unearthed skeletons. Or imagine this 
teacher working with a curator to examine wet-plate photographs of San 
Francisco in the Gold Rush days of the 1850s. Then imagine these 
teachers learning how to recreate this excitement in their own 
classrooms, using local objects or documents.
    It is particularly rewarding when the Smithsonian is able to deepen 
a teacher's understanding of the history of his or her own community. 
The Smithsonian, as a national institution, is not only devoted to 
history on a national level, but also to the history of a Nation 
composed of communities--the history of all of us. All of these 
experiences generate excitement and a renewed commitment to the 
teaching of American history. Just last week, a teacher reported that a 
Smithsonian workshop inspired her to enroll in a college course in U.S. 
history. We regard this as a success story, but we know it is not the 
end of the journey. Her renewed enthusiasm will be passed on, in 
incalculable ways, to her students. We all know that it takes an 
inspired teacher to inspire students.

                         CURRICULUM DEVELOPMENT

    Our curriculum materials, too, are based on Smithsonian 
scholarship, and they are available to every teacher in the country, 
regardless of whether or not the teacher is able to visit the 
Smithsonian in Washington, D.C. Our central education Web site, 
SmithsonianEducation.org, is a gateway to nearly 1,000 lesson plans, 
activity ideas, and teaching resources. This fall, we will unveil a new 
Web site, SmithsonianSource.org, devoted exclusively to American 
history and civics. It will contain resources for building subject 
knowledge and improving teaching skills. With content selected and 
evaluated by teachers, and aligned with history standards in select 
States, SmithsonianSource.org will include images of primary sources, 
document-based questions, lesson plans, and video clips that bring 
Smithsonian historians into the classroom.
    Let me give you an example of the kinds of curriculum resources we 
create here at the Smithsonian. As you might know, the National Museum 
of American History recently opened a major new permanent exhibition, 
The Price of Freedom: Americans at War, which shows how wars have 
shaped our Nation's history and transformed American society. At the 
museum's Web site, teachers can download lesson plans and can order a 
free DVD related to the exhibition. But the Smithsonian is such a vast 
and various institution that the teacher need not stop there. He may 
visit several other Smithsonian museum Web sites to find additional 
resources--writing activities based on the personal experiences of 
soldiers and their families, primary sources that document the 
contributions of African American aviators, and enormous collections of 
artworks and music clips that bring alive the cultural climate of the 
time.
    We disseminate this work through our bi-annual publication, 
Smithsonian in Your Classroom, to all elementary and middle schools in 
the United States. Each issue includes a background essay, lesson plan, 
images from our collection and recommended resources. Lessons guide 
students as they examine, for example, currency from the colonial era, 
children's letters from Japanese American internment camps, and Native 
American dolls from different regions. We also make these resources 
available to more than 4,000 teachers who attend our annual Teachers' 
Night in Washington, D.C., and select cities around the country.

                  OUTREACH TO CLASSROOMS AND STUDENTS

    Distance-learning technology is opening our doors to an even larger 
audience nationwide, taking our scholarship and collections directly to 
students through virtual field trips, broadcasts, and point-to-point 
conferencing. Students can see for themselves our Nation's treasures 
and go behind-the-scenes to watch Smithsonian historians at work. This 
year, virtual field trips enabled thousands of schoolchildren to 
participate in the historic opening of the National Museum of the 
American Indian; thousands more viewed the Wright Brothers' Flyer at 
the National Air and Space Museum and learned about the history of 
flight through interactive online experiments. Through real-time 
``video visits,'' students have a chance to view artworks depicting the 
American Revolution and to discuss the works with curators from the 
Smithsonian American Art Museum. These technologies also enable 
students to see the plants and animals that Lewis and Clark found on 
their expedition and read the journal entries describing these 
discoveries. Access to these primary sources can have a profound impact 
on the imagination and curiosity of students.
    The Smithsonian can also serve as a virtual gathering place for 
students to talk about the issues that will become tomorrow's history 
lessons. Through our annual Talkback Classroom video-conference 
program, students in Washington, D.C., hold discussions with students 
in Canberra, Australia. Topics have included the meaning of citizenship 
and the challenge of forging a national identity among citizens of 
varying backgrounds and cultures. To supplement these student-to-
student exchanges, U.S. students attend workshops with Smithsonian 
curators and historians, study Smithsonian resources, and take part in 
online conversations. The program culminates in the live 
videoconference in which students interview a prominent elected 
official.
    It may come as a surprise that even our science-focused museums and 
research centers are helping to improve students' civic skills, by 
showing them the ways in which scientific research and inquiry inform 
policy. For example, our Smithsonian Tropical Research Institute in 
Panama works with students and teachers to help them understand the 
connection between biodiversity research and international 
environmental policies. The National Zoo's Conservation and Research 
Center teaches students scientific methods for monitoring the health 
and diversity of plants and animals in their own communities. These 
experiences are preparation for the responsibilities of citizenship.

                               CONCLUSION

    The Smithsonian works with education-leadership organizations to 
better understand and serve the needs of students and teachers. We are 
currently seeking formal partnerships with the Council of Chief State 
School Officers and the National Board for Professional Teaching 
Standards. Officials in these organizations have confirmed that there 
is a great need for the kinds of professional-development training and 
distance-learning programs the Smithsonian can offer.
    Throughout its history, the Smithsonian has been devoted to the 
``increase and diffusion of knowledge.'' It is a weighty mandate. I 
hope that I have conveyed, in this brief overview, the ways we are 
fulfilling the mandate by reaching out to schools across the country. I 
commend the committee for its efforts to improve American history and 
civics education, and thus to equip students with the knowledge and 
skill to shape their own future. I welcome the chance to assist you in 
any way I can. Thank you.

    Senator Alexander. Mr. Parisi?
    Mr. Parisi. Thank you, Chairman Alexander. Thank you for 
the opportunity to speak about how the American History 
Achievement Act can help to strengthen the teaching of American 
history and civics. And thank you, Senator Reed, for your 
attendance and your kind words of introduction.
    As a staff member with the Rhode Island affiliate of the 
American Federation of Teachers, one of my assignments has been 
to serve on a State delegation to both congressional 
conferences on civics education. As a result of these 
conferences, Rhode Island has begun the hard but important work 
of ensuring that all its students are educated in State history 
and the principles of democratic Government. Unfortunately, my 
State has a long way to go. As you know, the most recent NAEP 
assessment suggests that American students are less proficient 
in American history than in any other core subject.
    Given the essential civic mission of our schools, one must 
ask how can this be. Some of the reasons on how this can be are 
contained in the 2003 study of the Al Shanker Institute, a 
nonprofit institute dedicated to promoting inquiry and 
discussion of education policy issues, and named in honor of 
the late president of the AFT. The report, Educating Democracy, 
states standards to ensure a civic core, evaluates all history, 
State and civics, and social studies standards at the secondary 
grades to determine their worth for educating democratic 
citizens. That is, viewed as a whole, do these standards embody 
a common core of learning that equip citizens to make informed 
decisions and are the required topics clear, concise and, most 
importantly, teachable in the fewer than 180 days a year that 
is typically available for classroom instruction?
    The results are mixed. The report found that only 24 States 
met or partially met the criteria for specifying a civic core 
within their standards, but none of the 48 States in the study 
had written a document that had both a clear focus on democracy 
education and was teachable in the limited time schools have 
available. I say 48 States because two States--Iowa and my own 
State of Rhode Island--do not even have standards in these 
essential subject areas. As the report suggests, the work of 
setting standards, deciding what is important, what is less 
important or not important for students to learn is crucial.
    We are doing what we can to rectify the lack of standards 
in Rhode Island. Fortunately, as of last night, bipartisan 
legislation has passed through the General Assembly to require 
our State Board of Regents to adopt standards in civics and 
Rhode Island history by August 31, 2007. And I must say that 
this important work was accomplished in large part because of 
the attendance of a team of Rhode Islanders to the two 
congressional conferences on civics education. We met, we had a 
rich discussion on the importance of civics and history, and we 
went back to our State with a plan on how to strengthen civics 
education in the State. We had a successful civics summit this 
past May 4th--Rhode Island Independence Day--and we were happy 
to be able to work on legislation to ensure that we join the 
other 48 States in having standards in this important area.
    Mr. Chairman, by introducing S. 860, both you and Senator 
Kennedy have sent a clear message that good standards are vital 
because they are a foundation for teaching and learning in 
every school. But having them and using them are two different 
things. Among the other findings in the Gagnon Report noted 
that only 12 States actually state that schools are required to 
teach and students are required to study the content defined by 
State standards. In 18 States, the existence of statewide tests 
for history or social studies at least implies that most 
students are required to learn this content. So good standards 
matter, but good assessments matter, too.
    I believe that S. 860 could be of great benefit to the 
creation of high-quality civics and history tests. The more 
frequent administration of the NAEP assessment in U.S. history 
would provide a more accurate picture of student achievement 
and help to draw public attention to the progress or lack of 
progress in this area. It might help as well in bringing some 
focus and clarity to the question of what constitutes an 
essential civic core for learning.
    The funding of State-level pilot assessments is also vital. 
State departments of education have a limited capacity to 
develop and implement any more assessment programs. Although 
State and Federal accountability requirements have placed 
increasing demands on State education agencies, these agencies 
around the country are losing staff as a result of State budget 
constraints. In the May 11th edition of Education Week, there 
was a front page article on this phenomenon. For example, over 
the past 2\1/2\ years, California's education agency lost 200 
employees; Michigan had a three-quarter reduction in staff over 
the past decade; Indiana staff has been reduced from 400 to 
260; and in my own State of Rhode Island, the professional 
staff at the State Department of Education has dropped from 95 
to 50 in recent years. And that approximately 50 percent drop 
is common throughout the country.
    So clearly, if States are to develop high-quality 
assessments, Federal assistance will be needed. By funding 
these pilot programs, quality models could be developed for all 
other States to emulate. And the existence of such testing 
programs also would help mitigate the tendency of No Child Left 
Behind and other accountability measures to narrow the 
curriculum toward reading and math and away from the 
humanities, arts, and social sciences.
    In education, getting the basics right is important. But 
neither can we forget that since our Nation's birth, the prime 
reason for free public education in a common school has been to 
nurture politically perceptive, committed citizens.
    Mr. Chairman, thank you again for the opportunity to speak 
about this important issue from the perspective of teachers. I 
welcome any questions from you or other members of the 
committee that you may have about my statement.
    [The prepared statement of Mr. Parisi follows:]

                   Prepared Statement of James Parisi

    Good afternoon Chairman Alexander, Ranking Member Dodd and members 
of the subcommittee. Thank you for this opportunity to speak on how the 
American History Achievement Act (S. 860) can help to strengthen the 
teaching of American history and civics.
    My name is Jim Parisi. As a staff member of the Rhode Island 
affiliate of the American Federation of Teachers (AFT), one of my 
assignments has been to serve on the State delegation to both 
congressional conferences on Civics Education. As a result of these 
conferences, Rhode Island has begun working to ensure that all of its 
students are educated in State history and the principles of democratic 
Government.
    Unfortunately, my State has a long way to go in this regard. As you 
know, the most recent NAEP assessments suggest that American students 
are less proficient in American history than in any other core subject. 
Given the essential civic mission of our schools, how can this be?
    One reason is suggested by a 2003 study from the Albert Shanker 
Institute, a nonprofit institute dedicated to promoting inquiry and 
discussion of educational policy issues and named in honor of the late 
president of the AFT. This report, Educating Democracy: State Standards 
To Ensure a Civic Core, \1\ evaluates all State history, civics, and 
social studies standards for the secondary grades to determine their 
worth for educating democratic citizens. That is, viewed as a whole, do 
the standards embody a common core of learning that equips citizens to 
make informed decisions--and are the required topics clear, concise, 
and teachable in the fewer than 180 days a year that are typically 
available for classroom instruction?
---------------------------------------------------------------------------
    \1\ For downloadable excerpts, go to http://www.ashankerinst.org/
Downloads/gagnon/contents.html.
---------------------------------------------------------------------------
    The results were mixed. The report found that only 24 States met or 
partially met the criteria for specifying a ``civic core'' within their 
standards. But not one of the 48 States in the study had written a 
document that had both a clear focus on democracy education and was 
teachable in the limited time schools have available. I say 48 States 
because two States, Iowa and my own State of Rhode Island, do not even 
have standards in these essential subject areas.
    As the report suggests, the work of setting standards--deciding 
what is most important and what is less important or not important for 
students to learn--is crucial. So what should be in a civic core 
curriculum? The late Paul Gagnon, the noted historian and education 
scholar who authored the study, put forward some concrete suggestions.
    According to Gagnon, ``Political education requires mastery of the 
fundamentals of civics--the principles and workings of Federal, State, 
and local Government, of the law and court systems, the rights and 
duties of citizens, and how the United States Constitution and its 
resulting institutions and practices are like and unlike those of other 
societies. But to sustain the principles, institutions, and practices 
of democracy, citizens need to understand why and how they came into 
being, the conditions that allowed them to be established, as well as 
the ideas and forces that have been supportive or destructive of them 
over time.'' In other words, they need to have a working knowledge of 
U.S. history and a basic knowledge of world history.
    We are doing what we can to rectify the lack of standards in Rhode 
Island. Bipartisan legislation has been introduced in our State 
Legislature that would require our State Board of Regents to adopt 
standards in civics and Rhode Island history. The Senate version of 
this bill was amended to give the regents until August 31, 2007, to 
accomplish this important task. This bill has widespread support in the 
State, and we are hoping to see it passed this year.
    Mr. Chairman, by introducing S. 860, both you and Senator Kennedy 
sent a clear message that good standards are vital because they are the 
foundation for teaching and learning in every school. But having them 
and using them are different things. Among its other findings, the 
Gagnon report noted that only 12 States actually say that schools are 
required to teach, and students are required to study, the content 
defined by State standards. In 18 States, the existence of statewide 
tests for history or social studies at least implies that most students 
are required to learn this content. So, good standards matter. But good 
assessment matters, too.
    I believe that S. 860 could be of great benefit in the creation of 
high quality civics and history tests. The more frequent administration 
of the NAEP assessment in U.S. history would provide a more accurate 
picture of student achievement and help to draw public attention to the 
progress--or lack of progress--in this area. It might help, as well, in 
bringing some focus and clarity to the question of what constitutes an 
essential civic core of learning. The funding of State-level pilot 
assessments is also vital.
    State departments of education have a limited capacity to develop 
and implement any more assessment programs. Although State and Federal 
accountability requirements have placed increasing demands on State 
education agencies, these agencies around the country are losing staff 
as a result of State budget constraints. The May 11, 2005 edition of 
Education Week had a front-page article on this phenomenon. For 
example, over the past 2\1/2\ years, California has lost 200 employees. 
Michigan has had a three-quarter reduction in staff over the past 
decade. Indiana's staff has been reduced from 400 to 260. In my own 
State of Rhode Island, the professional staff of the State education 
department has dropped from 95 to 50 in recent years.
    Clearly, if States are to develop high-quality assessments, Federal 
assistance will be needed. By funding these pilot programs, quality 
models could be developed for all other States to emulate. And the 
existence of such testing programs also would help mitigate the 
tendency of No Child Left Behind and other accountability measures to 
narrow the curriculum toward reading and math and away from the 
humanities, arts and social sciences. In education, getting the basics 
right is important. But neither can we forget that, since our Nation's 
birth, the prime reason for free public education in a common school 
has been to nurture politically perceptive, committed citizens.
    Mr. Chairman, thank you again for the chance to talk about this 
important issue from the perspective of teachers. I welcome any 
questions that members of the committee may have about my statement.

    Senator Alexander. Thanks to each of you. I will take about 
5 minutes for questions and then go to Senator Reed. And we 
will go back and forth for a few minutes.
    Mr. Parisi, thank you very much for your testimony. Albert 
Shanker was a real leader in standards and the American 
Federation of Teachers has been as well. And the Shanker 
Institute's focus on the civic mission in the public schools 
has been one of the leading educational efforts in the country 
to remind us of the importance of--helping us remember that an 
important part of public education is teaching children what it 
means to be an American. So it is especially appropriate that 
you be here.
    And Ms. Norby, it is almost impossible to imagine what the 
Smithsonian could do to help in so many different ways, so I 
look forward to talking with you.
    Let me direct my first questions, though, to Mr. Smith so I 
can understand what we are talking about. Now, as I understand 
it, you said that the national assessment in U.S. history and 
in civics--that is two different assessments, right?
    Mr. Smith. Yes.
    Senator Alexander. One in history, one in civics. And that 
the next national assessment is scheduled for 2006? Is that 
right?
    Mr. Smith. Yes, sir.
    Senator Alexander. In the 4th, 8th, and 12th grades?
    Mr. Smith. Yes, sir.
    Senator Alexander. And then it will be again in 2010 and 
2014.
    Mr. Smith. Yes, sir. The 2006 had already been scheduled, 
but the change in schedule added 2010 and 2014.
    Senator Alexander. So we can look forward, based upon your 
recent action, to a national assessment in 2006, 2010, 2014, in 
all three grades, of U.S. history and in civics?
    Mr. Smith. Yes, sir.
    Senator Alexander. Well, that is terrific. And then, what 
we are talking about today is seeing whether we can allow 10 
States to compare their results, which is one way to put the 
spotlight on the question. And as I understood your comments, 
you said that with appropriate notice and with funding for 2 
consecutive years, the year before and the year of 
administration that you could most easily do that in the 4th 
grade and 8th grade, and with more difficulty do it in the 
12th. Is that right?
    Mr. Smith. Actually, the 8th grade, with your bill calling 
for the 8th and the 12th, the 8th grade is something we have 
had experience and we have found that when your blue ribbon 
committee in the late 1980s did what it did and Congress 
followed the lead and enacted the legislation, we found that 
even in those years before No Child Left Behind, when it was a 
voluntary participation by the State, we typically were getting 
40 to 45 States a year to do that.
    Senator Alexander. In the 8th grade?
    Mr. Smith. In the 8th grade, yes. In the 12th grade, we 
have actually never tried the assessment. Now, as you know, we 
do have a national commission that has handed us a set of 
recommendations that would indeed suggest and move us toward 
12th grade assessment at the State level in the math and 
reading. And that is still under review. We have been getting 
mixed reactions, as you might imagine, from that.
    But the other factor that we have to look at--and as I 
indicated, if Congress says we will do it, we are going to get 
out and roll up our sleeves and we are going to do it--but we 
have found that there has been a declining participation rate 
at the 12th grade level in the 12th grade assessments that we 
are now conducting at the national level. And whether that is a 
trend that we can reverse is yet to be found. That is one 
reason why we created the national commission, to look at ways 
to increase participation. The last time, I believe it was in 
2002, when we had a 12th grade assessment, we only had 55 
percent participation. Well, that gets us to a level that puts 
us on a precarious edge as to whether or not we have a large 
enough sample to be valid and reliable and to produce results 
that are valid and reliable.
    So these are unknowns. They may not be hurdles. It may be 
that there will be enough interest that we can do it. But it is 
something that we have never tried before, and that is the main 
point I wanted to make. It is going to be unknown turf for us.
    Senator Alexander. But if we are going to do the State-by-
State comparisons, 8th grade, you say fine, with appropriate 
notice and funding?
    Mr. Smith. I really would not anticipate much of a problem 
getting the volunteer States to do that.
    Senator Alexander. And did I misunderstand or you didn't 
say anything about 4th grade for the State-by-State 
assessments, did you?
    Mr. Smith. No, sir, only because, with the bill calling for 
grades 8th and 12th, that is where we focused.
    Senator Alexander. Right.
    Mr. Smith. If you were to say 4th, I would say----
    Senator Alexander. No, I am just really seeking your 
advice. I guess I heard Mr. McCullough suggest, which was 
interesting, that he would focus on the middle school grades, 
it sounded like--5th, 6th, 7th, and 8th, those grades, which 
would argue in favor of the 8th grade test. On the other hand, 
if as a result of all the discussion that is going on about 
high schools right now, if we end up with a new focus on 
reading and math and science in the high schools and we leave 
out U.S. history, we may have unintentionally de-emphasized it 
at a time when we are trying to emphasize it.
    So I guess what we need to do is to hear you say that 8th 
grade no problem, and that is probably comparing your comments 
with Mr. McCullough's if that makes sense. Twelfth grade, we 
will look forward to your further advice.
    I wonder, Mr. Parisi or Ms. Norby, do you have any comment 
about 8th or 12th grade before I go to Senator Reed, your 
advice about where it would make the most sense for us to focus 
our attention?
    Mr. Parisi. I think one of the problems our report found 
was that there weren't always State standards that had the 
scope and sequence down pack. They were clear that, you know, 
in this grade you are going to take world history and this 
grade you are going to take American history. I know we have 
recommended 2 years of American history, and I have to tell 
you, Senator, that----
    Senator Alexander. In which years?
    Mr. Parisi [continuing].  In the secondary year. So if you 
had a 12th grade assessment, I would imagine that school 
districts would really have to closely examine what they 
require their high school students to take. Are they requiring 
their students to take enough U.S. history, for example, to 
score well on these assessments?
    Senator Alexander. So it would be one way to encourage 
States to focus on your recommendation.
    You know, one of the great ironies is that Iowa may have 
the best schools in the country, yet it doesn't have State 
standards in anything. But that is a separate discussion.
    Senator Alexander. Ms. Norby, do you have anything to add?
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you all for your testimony, particularly thoughtful and 
impressive.
    One of the areas that was alluded to, at least, was the 
pressure put on States by the requirements under No Child Left 
Behind for the grading, if you will, and testing in other areas 
such as English and mathematical reasoning. I wondered, from 
your perspective, Jim, can you give any insights from Rhode 
Island? Then I will ask Dr. Smith and Ms. Norby also.
    Mr. Parisi. Well, I know, you know, our State, like the 
rest of the country, developed report cards--you know, this is 
how this school has done on these State assessments. And people 
look at the page of the newspaper and, you know, think about 
their property value and think about how the schools are doing 
and make judgments about the performance of their local school 
based on those tests. But if those tests only cover a couple of 
subject areas, just English and just math, and they don't cover 
science and, sadly, they don't cover something like U.S. 
history, I don't think the general public is getting a full 
picture of how schools are doing.
    So if we expanded the tests to other important areas, I 
think it would really provide a better piece of public 
information so people can make informed judgments on what their 
schools are doing and what they need to be doing better.
    Senator Reed. Dr. Smith, any comments?
    Mr. Smith. I think most of what I have said already would 
be the essence of it, although I might add that there are two 
other trains moving down the track now, I think, that could 
have an impact, Senator, on your question also. One is the 
emphasis that is now being given by the National Governors 
Association by a lot of States on the high school focus. And to 
what degree that would inspire some change, some greater 
participation, some greater interest in knowing, that is an 
unknown, too, but at least it is an encouraging movement, I 
think, in that direction, that we should know something before 
long.
    The other thing that I failed to mention a while ago that I 
think is another piece of the answer, Senator, to your 
question, is that our board has been looking at the high school 
assessment for nearly 2 years now. And in that process, one of 
the items on the agenda has been whether or not there should be 
a State NAEP in these other subjects, like math and reading and 
science. And the recommendation of the blue ribbon commission 
was yes, there should be. So we are still in the process of 
evaluating that.
    Another important piece that I think has represented a 
change element that has relevance to what we are talking about 
here today, the commission recommended that we change our 
assessment at the 12th grade from one that is almost totally 
reflective--looking back--to one that would be predictive as to 
whether or not students are leaving prepared to go to college, 
to go to the workplace, or go to the military.
    In all of the many discussions, we have had many commission 
papers, we had a lot of presentations, a lot of discussion, it 
has been the central item on our agenda, and one of the things 
that has begun to crop up in the last 6 months or so is the 
feeling that maybe reading and math and even science are not 
the only ones that should be factored in to the preparedness 
question. History and civics have also, because after all, 
these assessment results would show that we have a whole lot of 
students leaving the high schools not prepared to be citizens. 
And that is an important point that now our board is even 
looking at whether or not extending that to whether you change 
the assessment in history to one that would be more predictive 
than reflective.
    Now, that is a tough challenge. It would be a little 
tougher to do that, I think, than it would be in math or 
perhaps in reading. But it is something on our table that is 
very much alive in the discussion.
    Senator Reed. Can you elaborate on the difference between 
looking backward and looking forward? Is that what you do with 
math and English now, you look forward and look backward?
    Mr. Smith. Well, presently, the present 12th grade 
assessment is one that really assesses what students have 
learned in high school and can do. What it doesn't do is 
project ahead to how well prepared they are to make it in 
college and the military and the workplace. And we have already 
addressed it with reading, and our board has gone on record in 
support of converting the framework, the new framework for 
reading, to one that would in fact look at preparedness. And it 
didn't take a whole lot of change. One of our great fears was 
that you might have to have 17 or 18 or 20 different levels of 
achievement to take into account what kind of workplace they 
were going into, what kind of college or university they were 
going into.
    But the basic conclusion--it is not just our conclusion; we 
have looked to Achieve, the organization Achieve, for some 
guidance on this and they came to the same conclusion--that in 
today's world what you need to make it in the workplace and 
college is not all that different. There are certain basics 
that you have to have. And what we are looking at is 
preparation for going into these areas, not assuming we are 
going to train every person to be this type of technician in 
one area and a business leader in another area and a Ivy League 
college in another area, but there are certain basics that 
would prepare you to go into these types of endeavors trained 
and prepared to do the work on the front end. Without 
remediation, I might say.
    Senator Reed. Thank you, Doctor.
    Just a final point, if I may, and I will address it to Ms. 
Norby and invite all the other participants. History and 
civics. You have two separate assessments, is that correct?
    Mr. Smith. Yes, sir.
    Senator Reed. OK. You know, again, I think maybe on the 
street the notion is, you know, history is important but much 
more important is civics--how does the Government work, how old 
do you have to be to vote, what are your responsibilities, etc. 
And harkening back to our youth, I think we used to, from our 
parents, get the notion that, well, these are the basic 
lessons, these civic lessons you have to know. In fact, that 
was often taught in Americanization classes. But if there is 
the pressure of time and curriculum, space, is civics something 
that has to be the essential for someone coming out of school?
    Ms. Norby. Senator Reed, if I can respond to that. What we 
have found in working with the teachers through the workshops 
is that they are under enormous pressure. And when given that 
pressure, they tend to focus on the areas of greatest 
accountability, where there is testing. At the same time, we 
find that teachers are trying to find ways to engage with the 
history and civics education through reading assignments, 
through analyzing primary sources. And to come back to the 
earlier discussion, we think that is a critical role that the 
civics and history education play in developing these critical 
thinking skills, of how do you compare different sources, how 
do you analyze them for detail, how do you weigh evidence. 
These are skills that will apply in whatever work they 
eventually go into.
    If I could also just mention on how we use tests in order 
to guide the development of our programs. We work very closely 
with Advanced Placement College Board looking at how actually 
children perform when they take those tests in school districts 
across the country and where the areas that they have greatest 
difficulty are. And in fact it is on the document-based 
questions, where students have to look at different documents, 
compare different sources, and arrive at an opinion and 
argument. And so when we develop our materials and our courses, 
that is what we focus on, is we have them working with 
historians modeling and then assisting the students and 
coaching the students in those kinds of schools. So the tests 
also help us in determining what kinds of programs and where we 
should put our focus.
    Senator Reed. Thank you.
    Just a final point, because the chairman has been most 
gracious. But Jim, do you have a quick comment?
    Mr. Parisi. Yes, I just wanted to note that the legislation 
that we got through the assembly last night did ask for civics 
standards K-12, so we definitely have a focus on civics. One of 
the five standards in this report on evaluating State standards 
talked about context and connection, that it can't just be U.S. 
history, but it has to be U.S. history in the context of civics 
and geography and economics, so that it is not just an issue of 
repeating facts, but understanding all the political 
ramifications of historical events.
    Senator Reed. Thank you. Thank you all very much.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Reed.
    I appreciate Senator Reed's last point. If I could disagree 
just a little bit with him. My own view is that one of the 
reasons why I believe U.S. history scores are the lowest of any 
of the scores is because we have gotten them all mixed up with 
civics lessons and social studies and we don't teach history 
anymore. We are teaching kids how to balance a checkbook and go 
vote, but we don't teach them about the Constitution, they 
don't read the Declaration of Independence, they don't read 
Martin Luther King's ``Letter from Birmingham Jail,'' and they 
haven't read the Second Inaugural Address, and they don't read 
the basic founding documents.
    And that is a real conflict for many teachers, because 
the--I mean, I think civics is important, but my own view is 
that we sometimes, when pressuring teachers and educators to 
mix up U.S. history and civics, they water down the history and 
don't have time for it and don't teach it very well.
    And so what I would much--I mean, just as one Senator's 
view, I like the fact that you have a distinct and discreet 
subject, U.S. history, and from that we would hope they would 
learn many of the things they need to know to be good citizens. 
And then in addition to that, there are lots of civic duties 
and responsibilities that need to be learned. So we could--I 
guess those are different points of view. Maybe they are, maybe 
they are not.
    Senator Reed. I don't think we are too far. I think we see 
the connection between the two. You can't really understand 
fully civics without a historical context, and American history 
leads you to lessons about how the country operates today as 
well as in the past.
    But I think this is a dilemma because of the pressure of 
schedules, time, and resources that teachers face every day. 
And perhaps just this discussion might be helpful to try to 
provide some focus.
    Senator Alexander. I think that is a good point. For 
example, you and Mr. Parisi were talking about the history of 
Rhode Island. And Senator Reed is very interested in this. He 
brings it up a lot. We have a lot of debates here in the U.S. 
Senate about religious tests or faith--you know, the role of 
Government and the role of religion. And if there is a single 
State in the country which has a lot to teach us about that, it 
would be Rhode Island. And so I would argue that learning just 
the flat-out history of Rhode Island and the early years and 
why it had a different point of view than Massachusetts Bay 
Colony and why it was different than Pennsylvania is worth 
doing before you ever get to civics. You might learn some 
civics as a result of that, but we might make better decisions 
about what we do here if we knew more about the history of 
Rhode Island.
    Mr. Parisi. I would have to say, Senator, our one National 
Park, all 4\1/2\ acres of it, is dedicated to Roger Williams.
    But to the point you just raised, I think a close 
examination of a State standards document would reveal that 
there is room for both. There is room for U.S. history 
standards and there is absolutely room for some kind of civics 
education, not only because it is an important core mission of 
schools, but there is ample evidence that when students take 
civics classes, they value voting more, they value keeping in 
contact with political officials more, they understand how the 
process works. So I think there is some real public benefit 
from ensuring that civics finds a place in whatever standards 
document States adopt.
    Senator Alexander. Senator Reed, do you have any other 
comment you would like to make?
    Senator Reed. No, I don't, except that was a very good idea 
for an amendment on your bill, to teach Rhode Island history to 
everybody, particularly here.
    Thank you, Mr. Chairman.
    Senator Alexander. And on Mr. Parisi's point, Senator, the 
number one school in the United States last year in terms of 
the highest percentage of students placing with a 4 and 5 on 
the Advanced Placement Test for U.S. history was the House Page 
School, were the students in the House of Representatives who 
work all day, live in the Government, hopefully get inspired by 
it, but at least in the middle of it they learn history and, 
hopefully, some civics.
    I have a few more questions and then we will bring the 
hearing to a conclusion.
    Dr. Smith, you may know this or you may not. I should know 
it, but I don't. In Tennessee, do you remember or do you know 
what has happened over the last 25 or 30 years in terms of the 
teaching of U.S. history and civics? Is there more of it? Is 
there less of it? Is it about the same? Is it being taught 
differently? You have seen it from many vantage points. What 
would your estimate be?
    Mr. Smith. I think, Senator--and I have some gaps because I 
have been in and out in different roles--but I would say that 
there has been a kind of an ebb and flow in the way that it has 
developed. I think that in the period of the 1980s, when you, 
and Governor McWherter in the 1990s, were building what I felt 
was a very firm foundation, you with the Better Schools 
program, he with the Basic Education program. That really 
brought Tennessee, I think--and in some cases ahead of many 
other States--a foundation building process and it was a whole 
lot happening all at one time. And I think that during that 
period, people were scrambling at the school and district level 
to try to come up with all the various issues related to 
standards, to curriculum, to assessment. And in that process, I 
think some did it well and some did it not too well. There were 
a lot of stops and starts.
    I think, bottom-line, though, to your question is that the 
end result of that is--and I have talked with people in 
Tennessee in the past several days about where they are, and I 
think one very important movement is that the State Board of 
Education within the last couple of years has developed an exit 
exam in American history that didn't exist before. And that is 
building off of some of the things that were done in that 
earlier period that I talked about, when you were governor and 
Governor McWherter was governor.
    But I don't think--and I might say, too, that I am 
answering this as a former commissioner of education, not as 
the head of the National Assessment Governing Board, because we 
are not really supposed to be commenting about different 
States. But I hope that is understood by all for the record, I 
had to say that.
    But as I look back on it, I really wish I had had this 
experience that I am in now first and then became commissioner 
of education, because there are some things that are happening 
here, I think, at the State level that are not generally 
known--and I don't mind admitting. For example, I had no idea 
as State commissioner of education, even though I supported 
NAEP and we were one of the early States to get into the NAEP 
assessment process, I had no idea of the type of process at 
this level that you go into in developing the assessment 
frameworks. It is a 2 year process. It involves literally 
hundreds of people, experts, from all across the Nation, people 
who are from practically every State involved in that process.
    And I think if you ask anyone who knows anything at all 
about NAEP, the great majority of them would say, well, that is 
an inside-the-Beltway product. And nothing could be further 
from the truth. It is really a document that represents the 
best thinking of citizens at the grassroots level who are in 
some cases teachers, in some cases curriculum experts, in some 
cases members of the public, parents, and others. And one thing 
I have noticed even in the short 2\1/2\ years I have been here, 
there has been an upsurge in States coming to us and saying we 
want to know more about your framework. I actually heard a 
commissioner of education say in my presence and in the 
presence of other State commissioners, We're going to make our 
State assessment more ``NAEP-like.''
    I see that as a positive, because there is no way that a 
single State, except maybe some of the really large States, 
would have the human and fiscal resources to develop the type 
of framework that we are able to develop at the Federal level. 
And to the extent that becomes an item that is of value to the 
States, I think that is very, very positive. If we had had that 
or known we could get that in the early 1990s, late 1980s, when 
I was commissioner, I think we would have saved a lot of 
spinning of our wheels.
    Senator Alexander. I wonder, do you have any annual 
conference of State education commissioners to explain what you 
do?
    Mr. Smith. Well, one of the things that is coming out of 
this overall review that I referenced earlier is a 
recommendation that we work with State chiefs and with 
assessment directors and become, hopefully--get a place on 
those programs, to where we can go and do just what you 
suggest.
    Senator Alexander. One suggestion might be the National 
Governors Association meets here every February and they meet 
with the President and with one another, and you might invite 
the education commissioner of each State to come at that time 
and spend a day on a variety of things. Because I agree with 
you, it is a new governor or a new education commissioner, even 
if they have a fair amount of background, would save a year or 
2 or 3 if they could find out early in the term what is 
available.
    Mr. Smith. Yes.
    Senator Alexander. And that sort of focus, I bet you could 
get pretty good attendance at such a thing in February.
    Mr. Smith. We will pursue that idea. That is excellent.
    Senator Alexander. May I shift to Ms. Norby. The 
Smithsonian has such resources and does such a good job on so 
many things, I wanted to refer to something Mr. McCullough 
said. He said Mount Vernon is spending $84 million to build a 
visitors center, first to teach the visitors who George 
Washington was before they go into his house. And that is 
something to make us stop to think. You know, often we start 
talking about a subject assuming everybody knows what we are 
talking about, and we haven't stopped first to introduce 
ourselves or to introduce the subject.
    And I suppose there was a time in our history not so long 
ago when no one had to introduce George Washington or Thomas 
Jefferson or John Adams or many other people. But today that 
may not be true.
    There was an article in the Washington Post last week that 
you may know about, which I would say chided the Smithsonian's 
Museum of American History a little bit by suggesting that ``it 
doesn't tell the whole American story or even chunks of the 
American story in chronological order, from Washington to Adams 
to Jefferson, from Roosevelt to Truman to Eisenhower. When this 
museum was built in 1964, this sort of thing probably wasn't 
necessary. But judging from a group of teenagers whom I 
recently hear lapse into silence when asked if they could 
identify Lewis and Clark, I suspect it is now necessary 
indeed.''
    One of the criticisms of the teaching of U.S. history is 
partly that it has gotten all jumbled up with social studies 
and so we just don't teach the raw documents anymore. Another 
of the criticisms is that we don't teach it as a great 
narrative story and that, because our history is such a work in 
progress that just taking snapshots of everything about this 
group of people or everything about that group of people misses 
the drama, misses the saga, misses the misunderstanding.
    I mean, if we just took snapshots, Jefferson would be a 
slave-owner, women wouldn't be voting, and we wouldn't 
understand that our whole history has been one of reaching 
toward goals, failing to meet them, falling back, trying again, 
making progress. I mean, that is what most of our politics is 
about here in the U.S. Senate, about great goals that we have 
aspired to but we don't make them, so we recommit ourselves to 
try again.
    I wonder if the Smithsonian--is it a valid criticism of the 
Smithsonian that when there are visitors there, that you don't 
spend enough time first introducing the United States to the 
visitor and saying this is George Washington, this is 1776, 
this is a chronology of this period of time? Obviously there is 
an appetite for that, because books on Washington, Franklin, 
Jefferson, 1776 are best-sellers in our country.
    What would you say to this sort of criticism, or 
constructive criticism, let's say.
    Ms. Norby. I think, Mr. Chairman, it has been a fair 
criticism but it is one that the Smithsonian has been 
addressing. If you look at some of our more recent exhibitions, 
for instance the exhibition that opened just a couple of years 
ago on the presidency, that looks at presidents over time, so 
it gives a narrative, and looks at how leadership has changed 
as a result of circumstances. Or if you look at our most recent 
exhibition looking at our Nation at War. It is a large 
narrative, looking at war over our entire history. So I think 
that our recent exhibitions have worked with this.
    There is another way we are dealing with it as we transform 
our museums, and that is through Web sites, developing hand-
held devices that people can use while they are in the 
galleries. There are a lot of additional tools we have 
available to us now to extend that story beyond the museum 
visit itself.
    Senator Alexander. Thank you for that. The drama or the 
gripping part of America is that it is a great story. The 
reason the room fills up when David McCullough comes and the 
reason his book is at the top is because he tells a great 
story. And the stories have a beginning and they keep going and 
going, and it is just one thing after the other. As one 
political scientist said, most of our politics is about two 
things.
    One is conflicts of principles in which almost all of us 
agree. For example equal opportunity versus rule of law, in the 
immigration debates we have in the Senate. We both agree on 
rule of law and we both agree on equal opportunity, but when we 
talk about illegal immigrants having drivers licenses, they 
conflict. And other principles conflict. So we debate that.
    And then we are always debating what do we do when we fail 
to reach a great goal, what do we do about the failure to have 
a Federal law abolishing lynching in 1937; what do we do about 
not giving women the right to vote for such a long period of 
time. And we still say no child left behind. Even though we 
will never quite get there, we set these high goals and then 
deal with the disappointment. So I would hope that chronology 
and great narratives are something that we could continue to 
put a spotlight on.
    I want to thank each of you for your contribution today in 
helping us put a spotlight on the importance of U.S. history 
and civics and the civic role of our public schools. I want to 
invite you to continue. There are a number of us interested in 
this and we are going to keep lifting up the subject as much as 
we can without getting the Federal Government improperly 
involved in the administration of local schools, which all of 
us are wary of.
    We look forward to further suggestions that you have. I 
hope very much, Dr. Smith, that we can work with you and NAGB 
and pass this legislation, which would, at least in the 8th 
grade and perhaps in the 12th as well, permit 10 States to put 
a focus on achievements in U.S. history and in civics.
    Let me invite each of you, to wind up the hearing, I am 
going to give you each 60 seconds, Dr. Smith and then Ms. Norby 
and Mr. Parisi, and if you have anything you would like to say 
to conclude the hearing, I would like to invite you to do that 
now.
    Mr. Smith. Well, thank you, Senator. Let me say again how 
much we appreciate this opportunity to be a part of this 
hearing and also for the consideration that has been given to 
NAEP and the Nation's Report Card to be an important ingredient 
in your overall initiative. We would certainly welcome 
continuing dialogue with you. And I want to say again that, 
while we can't be in a position of promoting legislation, we 
can certainly be in a position of responding to it. And if this 
is a successful effort, as we hope it will be, you can be 
assured that we will give it a 100 percent effort in getting it 
implemented, and I think it would be a step in the right 
direction.
    Senator Alexander. Thank you.
    Ms. Norby?
    Ms. Norby. Thank you for giving us this opportunity, and we 
look forward to working with you. There is an enormous 
challenge to continue to prepare teachers for their 
responsibilities in the classroom and to reinvigorate their 
teaching. I think what the Smithsonian in particular has to 
offer is, through our resources, the ability to inspire the 
teachers, and then through the teachers the students. So we 
look forward to committing those resources to the continued 
improvement of teaching of history and civics.
    Senator Alexander. Thank you.
    Mr. Parisi?
    Mr. Parisi. Mr. Chairman, thank you very much for the 
opportunity to be here. The Shanker Institute Report is 
constructive criticism on the 48, soon to be 49, State 
standards. We think that passage of your legislation and having 
a more frequent assessment would be yet another piece of 
important information for all States to look at so that they 
can strengthen their State standards and that student 
achievement would increase. So thank you again for raising this 
important issue, and thanks for letting me speak today.
    Senator Alexander. Thank you, and the hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Theodore K. Rabb

    Mr. Chairman, and members of the committee, among the many issues 
and concerns that face the United States and its Government today, none 
has larger implications for the future health of our democracy than the 
one that bill S. 860 addresses: namely, our citizens' understanding of 
America's past.
    Behind the grim statistics of student ignorance that are cited in 
the bill lie a series of basic educational conditions that make it 
unlikely the situation will soon improve. Indeed, a few months ago some 
30 of the Nation's leading historians, joined by a number of public 
figures, signed a statement entitled ``Crisis in History''. They 
emphasized the need for urgent action to remedy the serious decline in 
attention to history in our schools, and the related lack of adequate 
preparation among our teachers. Over 550 teachers and academic 
historians have since signed the statement, and a copy, together with a 
list of the original signatories, has been sent to the committee's 
staff.
    Even as the Teaching American History grant program in the 
Department of Education and the ``We the People'' initiative by the 
National Endowment for the Humanities indicate the commitment of the 
Federal Government to a citizenry informed about its past, the actual 
amount of time devoted to the subject in our classrooms is shrinking 
and the qualifications demanded of teachers are eroding.
    As a result, not only are there inadequate opportunities in our 
schools to give students a better grounding in history, but the content 
of what they are taught leaves much to be desired. Teachers often lack 
the necessary credentials, the emphasis on general ``Social Studies'' 
reduces serious consideration of history, and books and other classroom 
materials fall far short of the standards we should expect.
    It will take a major effort to turn this situation around, but bill 
S. 860 is at least an important first step. Testing may not be the 
answer to all problems, but the comparative NAEP data that the bill 
requires will provide essential information on which future policies 
can be built. As the former chair of the National Council for History 
Education, and the originator of the ``Crisis in History'' statement, I 
applaud Senators Alexander and Kennedy for introducing this bill, and 
enthusiastically endorse its passage.

    [Whereupon, at 4:45 p.m., the hearing was adjourned.]


</pre></body></html>
